Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2008 – March 31, 2009
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the
GSA OIG and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                               PAGE

ACQUISITION               GSA’s procurement organization awards and administers 2
PROGRAMS                  government-wide contracts worth $100 billion. With
                          growing programs and shrinking numbers of qualified
                          acquisition personnel, attention to important fundamentals
                          such as ensuring competition, meaningful price analysis,
                          and implementation of statutory and regulatory
                          compliance-type requirements has diminished.

INFORMATION               Technology applications have increased exponentially         4
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting         6
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

PROTECTION OF             GSA is responsible for protecting the life and safety of     No
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The      Reports
AND PERSONNEL             increased risks from terrorism have greatly expanded the     This
                          range of vulnerabilities. A broadly integrated security      Period
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss    No
                          of institutional knowledge due to retirements, including a   Reports
                          loss of key management staff over the past year. Better      This
                          recruitment and training programs are needed to develop      Period
                          the 21st century workforce.

FEDERAL                   Faced with an aging, deteriorating inventory, GSA is         10
BUILDINGS                 challenged in making the best use of available funds
FUND                      to deliver high performance workplaces on schedule
                          and within budget.
                           Foreword



I am pleased to provide this report to the people of the United States and their elected
representatives in Congress. The Office of Inspector General (OIG) at GSA has been
working successfully to identify waste, fraud, and abuse in the programs and operations of
GSA. For the period covered by this semiannual report (SAR), the OIG identified almost
$317 million as funds recommended for better use and questioned costs. The OIG issued
56 audit reports. We also made 141 case referrals for criminal prosecution, civil litigation,
and administrative action—activities valuable in their own right, as well as for their
deterrent effect. In this reporting period we achieved savings from management decisions
on financial recommendations, and from civil settlements and investigative recoveries,
totaling over $661 million.

This reporting period, the GSA OIG formed a new Forensic Auditing Unit. Utilizing forensic
auditing approaches enables Inspectors General to better focus their work, and provides
them with a powerful technique for the identification of fraud, waste, and abuse and the
successful prosecution of offenders. The approach is paying off. Forensic auditing is
helping to bring together important skills across the OIG in concentrated ways, and is
highlighting the value of increased teamwork in pursuit of our mandate to protect
taxpayer dollars.

We continue to work with the Council of Inspectors General for Integrity and Efficiency,
other OIGs, and law enforcement agencies. Throughout this reporting period, I continued
to serve as the Vice Chair of the National Procurement Fraud Task Force. Legislative
recommendations stemming from the Task Force’s White Paper have been the subject of
Senate hearings and have formed the basis for new legislation and regulations. A major
change in the Federal Acquisition Regulation (FAR) requiring contractor reporting of crimes
and overpayments was a result of legislative action based on the Task Force White Paper.
GSA OIG was one of the first offices to develop a website for contractor reporting, which
has served as a model for other agencies. The GSA OIG is involved heavily, as well, in
coordinating its efforts with the new Recovery, Accountability, and Transparency Board,
charged with overseeing the implementation and impact of the economic stimulus funding.
GSA plays a pivotal role in Recovery Act efforts through both the Public Buildings Service
and Federal Acquisition Service.

As we carry out all our duties, we endeavor to assist GSA to accomplish its important
mission in an efficient manner and to observe all applicable requirements. The steady
record of accomplishment of OIG employees continues to be a source of great pride. I
commend our employees for their continued professionalism, dedication, and performance
in fulfilling their oaths to uphold the law. I also wish to recognize the continued, strong
support of the Congress, OMB, and employees throughout GSA for the efforts of the OIG.




Brian D. Miller
Inspector General
March 31, 2009




                                                             October 1, 2008 – March 31, 2009 i
          Table of Contents

                                                                                              Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .xii

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .2

   Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .4

   Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6

   Federal Buildings Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .10

   New Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .12

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . .15

Governmentwide Policy Activities . . . . . . . . . . . . . . . . . . . . . . . . . . .24

Professional Assistance Services . . . . . . . . . . . . . . . . . . . . . . . . . . .28

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . .30

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . .37

Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . .41

Appendix III – Audit Reports over 12 Months Old, Final Agency
               Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

Appendix IV – Government Contractor Audit Findings . . . . . . . . . . .51

Appendix V – Audits Without Management Decision . . . . . . . . . . . .52

Appendix VI – Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . .53

Appendix VII – Reporting Requirements . . . . . . . . . . . . . . . . . . . . .54

Appendix VIII – OIG Offices and Key Officials . . . . . . . . . . . . . . . . .55

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                 October 1, 2008 – March 31, 2009 iii
                      Summary of OIG Performance

                       October 1, 2008 – March 31, 2009

OIG Accomplishments    Total financial recommendations                              $316,935,094

                       These include:

                       • Recommendations that funds be put to better use            $299,877,880

                       • Questioned costs                                            $17,057,214

                       Audit reports issued                                                     56

                       Subjects referred for criminal prosecution,
                       civil litigation, & administrative action                               225

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                   $661,513,864

                       Indictments and informations on criminal referrals                       61

                       Cases accepted for criminal prosecution                                  46

                       Cases accepted for civil action                                          14

                       Successful criminal prosecutions                                         55

                       Civil settlements                                                          5

                       Contractors/individuals suspended and debarred                           90

                       Employee actions taken on administrative referrals
                       involving GSA employees                                                  19




                                                                     October 1, 2008 – March 31, 2009 v
     Executive Summary



During this semiannual period, the OIG continued to direct its auditing and
investigative resources toward what it has identified as the major
management challenges facing GSA. The OIG conducted audit reviews and
investigations to ensure the integrity of the Agency’s financial statements,
programs, and operations, and to ensure that the taxpayers’ interests were
being protected. The OIG also continued to initiate actions to prevent fraud,
waste, and abuse, and to promote economy and efficiency throughout GSA.

The OIG’s resources have been directed specifically toward conducting
preaward, financial, and programmatic audits; management control
assessments; contract reviews; investigations of fraud, abuse, and related
actions by GSA employees and government contractors; and litigation
support in civil fraud actions, enforcement actions, criminal prosecutions,
contract claims, and administrative actions, all in an effort to maintain the
integrity of GSA programs.

Management Challenges
The OIG continued to strive to provide the high level of quality in reviews and
recommendations for which it is known, and which it believes necessary in
order for GSA to continue leading the government in contracting and
procurement. During this semiannual period, the focus has been on
acquisition programs, information technology, management controls, the
federal buildings fund, new initiatives, civil actions, and criminal actions. The
following are significant audits and reviews that identify major issues facing
GSA.

Acquisition Programs
Significant Preaward Reviews and Other Audits. The OIG’s preaward
review program provides information to contracting officers (COs) for use in
negotiating contracts. This period, the OIG performed preaward reviews of 41
contracts with an estimated value of $3.7 billion. We recommended that more
than $299 million be put to better use. During this reporting period,
management decisions were made on 34 preaward reports, which
recommended that over $603 million be put to better use. Management
agreed with 100 percent of the recommended savings (page 2).

Improvements in Response to Audit Recommendations for Small
Business Acquisitions. While responsibility for implementing appropriate
corrective action in response to audit report recommendations resides with
Agency management, the OIG performs some reviews of whether appropriate
corrective action has been taken. The Office of Audits reviewed
management’s corrective actions in response to recommendations regarding
the Streamlined Technology Acquisition Resources for Services program
through the Small Business Governmentwide Acquisition Center. While we
noted some areas for improvement that could further strengthen controls
already in place, in general, the Center has made significant positive changes
to the controls of the program since the original report (page 3).


                                              October 1, 2008 – March 31, 2009 vii
                                              Executive Summary



                                         Information Technology (IT)
                                         Further Risk Management Needed in USAccess. GSA established
                                         USAccess in 2007 in response to the Homeland Security Presidential
                                         Directive 12 requirement of a mandatory, government-wide standard for
                                         secure and reliable forms of identification. We have begun reviewing
                                         USAccess to determine whether GSA has implemented the necessary
                                         security controls to manage the risks inherent in its only “high risk” system,
                                         and have issued an initial interim audit report. We found that the Federal
                                         Acquisition Service has implemented many of the security controls required
                                         by the Federal Information Security Management Act of 2002 and GSA’s IT
                                         Security Program. Risk management practices could be improved, however,
                                         by including control assessments for system web services in ongoing
                                         oversight. Further, improvements are needed to ensure that contractor staff is
                                         trained in its responsibilities for implementing GSA security policies and
                                         protecting sensitive information (page 4).

                                         Management Controls
                                         Financial Statement Audit and Related Reviews
                                         Fiscal Year 2007 and 2008 Audits Reveal Accounting, Security
                                         Weaknesses. As in past years, GSA’s Financial Statement Audit was
                                         performed by an independent public accounting firm, with oversight, support
                                         work, and guidance provided by the OIG. The audit indicated that GSA lacks
                                         effective controls to ensure that budgetary transactions are properly
                                         processed to permit the timely preparation of financial statements in
                                         accordance with generally accepted accounting principles. The audit also
                                         identified security weaknesses across multiple systems, in the areas of
                                         segregation of duties, user and administrator logical access, and activity
                                         monitoring, which create significant vulnerabilities in financial data. Further,
                                         the audit found reportable instances in which GSA’s financial management
                                         systems did not substantially comply with the requirements of the Federal
                                         Financial Management Improvement Act (page 6).

                                         GSA Office of the Chief Financial Officer Controls Over Performance
                                         Measures. Internal controls over GSA’s performance measure data are
                                         operating effectively (page 8).

                                         Reports Regarding Agreed-Upon Accounting Procedures. The Office of
                                         Audits performed and provided to the independent public accounting firm
                                         reviews of GSA’s Fiscal Year 2008 environmental liabilities, legal loss
                                         contingencies, and internal controls over payroll (page 9).

                                         Control Weaknesses in Financial Systems. Each year, we review the
                                         Agency’s Federal Managers’ Financial Integrity Act process to determine
                                         whether management adequately disclosed all known control weaknesses
                                         and non-conformities in the Agency’s programs, operations, and systems. We
                                         noted weaknesses in budgetary reporting, systems integration, and
                                         accounting for accounts payables and receivables. The independent financial
                                         audit also identified budgetary reporting and system security weaknesses
                                         (page 9).
viii Semiannual Report to the Congress
     Executive Summary



Federal Buildings Fund
Inefficiencies in Davis-Bacon Requirements and Real Property Leasing.
Rep. Eleanor Holmes Norton requested that the OIG examine the effect of
the Davis-Bacon Act, which requires that laborers on Federal construction
projects receive compensation comparable to that on non-Federal jobs in the
same geographical areas; and the efficiency of the GSA National Capital
Region’s (NCR’s) real property leasing process. The Office of Audits found
that the vast majority of payroll records conform to Davis-Bacon Act
requirements. However, the Act’s reporting requirements are burdensome for
the contractors. We determined that while NCR’s internal quality assurance
and compliance process steps are necessary to ensure accurate, legally
sufficient, and appropriately funded leases, there were significant delays in
verifying the accuracy of occupancy agreements (page 10).

New Initiatives
New Rule Requiring Contractor Disclosure. Effective December 12, 2008,
the Federal Acquisition Regulation requires Federal contractors to disclose
credible evidence of significant overpayments, and certain civil and criminal
violations. The Office of Audits, Office of Investigations, and Office of Counsel
to the Inspector General will work together on disclosures made to the Office
of Inspector General. Each disclosure will be examined and a determination
made as to what actions are warranted. During this reporting period we
received three disclosures (page 12).

American Recovery and Reinvestment Act Oversight. The American
Recovery and Reinvestment Act of 2009 (Recovery Act) provides GSA with
funding to renovate and repair Federal buildings to improve energy efficiency,
construct land ports of entry, and acquire fuel-efficient vehicles. The oversight
of GSA’s implementation of the Recovery Act will require a full range of
oversight activities including contract, financial, and internal audits as well as
criminal investigations. Some historic management challenges could impact
GSA’s implementation of the Recovery Act, including construction program
deficiencies relating to cost escalations, claims, and project delays, and
difficulties in ensuring that financial statements are complete and accurate
(page 13).

Promoting and Protecting Integrity
GSA is responsible for providing working space for one million Federal
employees. The Agency also manages the transfer and disposal of excess
and surplus real and personal property, and operates a government-wide
service and supply system. To meet the needs of customer agencies, GSA
contracts for billions of dollars worth of equipment, supplies, materials, and
services each year. When systemic issues are identified during
investigations, they are shared with GSA management for appropriate
corrective actions. During this period, criminal, civil and other monetary
recoveries totaled more than $54.4 million.



                                               October 1, 2008 – March 31, 2009 ix
                                           Executive Summary



                                      Significant Civil Actions and Criminal Investigations
                                      Civil Settlements. Armor Holdings Products, LLC, agreed to pay the
                                      Government $30 million to resolve allegations that it violated the False Claims
                                      Act by knowingly manufacturing and selling defective Zylon bullet-proof vests
                                      (page 15). AMEC Construction Management, Inc., agreed to pay almost $12
                                      million and forfeit over $7 million to settle judgments that it had submitted
                                      falsified invoices and false documents, and received kickbacks from its
                                      bonding agent’s commissions (page 16). Tifco Industries, Inc., paid the
                                      United States $1.6 million, and Inter-Tel, Inc., paid $1.3 million, each to settle
                                      claims that the companies falsely certified that their products were compliant
                                      with the Trade Agreements Act (pages 16, 17). American Systems
                                      Corporation agreed to pay the Government $810,000 for inaccurately billing
                                      the government for services and products under a GSA contract (page 17).

                                      Fraud and Theft of Government Property. A US Army specialist pled guilty
                                      to using Army funds to purchase at least $98,000 in products which he sold
                                      for his own benefit (page 18). Two former employees of a government
                                      contractor and subcontractor were found guilty of conspiracy to defraud two
                                      other companies in securing sales under a GSA contract (page 19). A GSA
                                      supervisor pled guilty to theft of government funds and money laundering for
                                      submitting fraudulent refund vouchers for payments to a fictitious company
                                      (page 19). A Contracting Officer’s Technical Representative pled guilty to wire
                                      fraud for authorizing payments to contractors for uncompleted work in
                                      exchange for subcontracting their work with companies in which he held a
                                      financial interest (page 20). A contractor pled guilty to fraudulently billing the
                                      Government using Voyager fleet card numbers he had obtained when he
                                      previously had performed services on the government vehicles (page 21).

                                      Other Crimes. Two federal employees pled guilty to paying and accepting
                                      bribes, respectively, in exchange for the award of government contracts to a
                                      company one employee owned (page 17). A GSA contractor employee pled
                                      guilty to embezzlement of interstate and foreign shipments of heating oil and
                                      conspiracy to launder money; several other employees have been charged
                                      (page 21). GSA investigators also discovered two previously lost or stolen
                                      items of Works Progress Administration art for sale on the eBay auction
                                      website and were able to recover them (page 21).

                                      GSA Voyager Fleet Charge Card Abuse. During this period, 20 individuals
                                      pled guilty, 24 individuals were indicted, and 18 individuals were arrested in
                                      connection with cases arising out of fleet charge card investigations. These
                                      cases involved thousands of dollars of fraudulent activities associated with
                                      this program (page 22).




x Semiannual Report to the Congress
     Executive Summary



Suspension and Debarment – Highlights
During this reporting period, the OIG made 153 referrals for consideration of
suspension/debarment to the GSA Office of Acquisition Policy. GSA issued
90 suspension and debarment actions based on current and previous OIG
referrals (page 22).

Integrity Awareness – Highlights
The OIG presents Integrity Awareness Briefings nationwide to educate GSA
employees on their responsibilities for the prevention of fraud and abuse and
to reinforce employees’ roles in helping to ensure the integrity of Agency
operations. This period, we presented 60 briefings attended by 761 regional
and Central Office employees (page 23).

OIG Hotline – Highlights
During this reporting period, we received 1,305 Hotline contacts. Of these
contacts, 230 Hotline cases were initiated. In 106 of these cases, referrals
were made to GSA program officials for review and action as appropriate; 43
were referred to other Federal agencies for follow up; 55 were referred for
OIG criminal/civil investigations or audits; and 26 did not warrant further
review (page 23).

Summary of Results
The OIG made over $299 million in financial recommendations to better use
government funds; made 225 referrals for criminal prosecution, civil litigation,
and administrative actions; reviewed numerous legislative and regulatory
actions; issued 15 subpoenas; and received 1,305 Hotline contacts. This
period, we achieved savings from management decisions on financial
recommendations, civil settlements, and investigative recoveries totaling over
$661 million.




                                              October 1, 2008 – March 31, 2009 xi
                                        OIG Organization Chart


                                             Inspector General
                                                Brian D. Miller
                                          Deputy Inspector General
                                          Robert C. Erickson (Acting)

            Office of Counsel to the IG                               Office of Internal Evaluation & Analysis
                    Richard Levi                                                   Peter J. Coniglio
                 Counsel to the IG                                                     Director

                                                                            Office of Forensic Auditing
                                                                            Patricia D. Sheehan (Acting)
                                                                                       Director


     Office of Administration                   Office of Audits                     Office of Investigations
      Carolyn Presley-Doss                    Theodore R. Stehney                        Gregory G. Rowe
      AIG for Administration                    AIG for Auditing                      AIG for Investigations


       Budget, Planning, and                      Audit Operations Staff                 Investigations Operations
       Financial Management                                                                       Division
              Division
                                                    Administration &
                                                   Data Systems Staff
       Facilities and Contracts                                                              Regional Offices
                Division                                                                      Washington, DC
                                                      Information                               New York
                                                 Technology Audit Office                         Atlanta
         Human Resources                                                                         Chicago
                                                                                               Kansas City
            Division
                                                     Real Property                              Fort Worth
                                                      Audit Office                            San Francisco
                                                                                                 Auburn
       Information Technology
              Division                          Finance & Administrative
                                                      Audit Office
                                                                                                  Sub-Offices
                                                                                                    Boston
                                                  Acquisition Programs                              Denver
                                                      Audit Office                                Los Angeles
                                                                                                     Miami
                                                                                                  Philadelphia
                                                  Contract Audit Office


                                                   Field Audit Offices
                                                     Washington, DC
                                                       New York
                                                      Philadelphia
                                                        Atlanta
                                                        Chicago
                                                      Kansas City
                                                       Fort Worth
                                                     San Francisco


xii Semiannual Report to the Congress
                                  OIG Profile



Organization          The GSA OIG was established on October 1, 1978 as one of the original 12
                      OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

                      The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessment of management controls, and
                        financial and compliance audits. The office conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office also provides
                        research, benchmarking, and other services to assist Agency managers
                        in evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative and regulatory review.

                      • The Office of Internal Evaluation and Analysis, a multidisciplinary staff that
                        manages operational reviews of the OIG components, performs special
                        projects for the Inspector General, including research and analysis;
                        provides advice to the Inspector General; and conducts internal affairs
                        reviews and investigations. It houses the Office of Forensic Auditing, an
                        independent team that combines auditing and investigative techniques to
                        utilize innovative detection strategies, assess fraudulent situations, and
                        produce evidence meeting the standards required by criminal courts.

                      • The Office of Administration, a professional staff that provides information
                        technology, budgetary, administrative, personnel, and communications
                        support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field offices are maintained in Atlanta, Boston, Chicago, Denver,
                      Fort Worth, Kansas City, Los Angeles, Miami, New York, Philadelphia, San
                      Francisco, Auburn, WA, and Washington, DC. (A contact list of OIG offices
                      and key officials is provided in Appendix VIII.)

Staffing and Budget   As of March 31, 2009, our on-board staffing level was 291 employees. The
                      OIG’s FY 2009 budget is $58.1 million, which includes $3.25 million in
                      reimbursable authority and $800,000 in funds appropriated under the American
                      Recovery and Reinvestment Act of 2009.


                                                                    October 1, 2008 – March 31, 2009 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Preaward Reviews and Other Audits
                                      The OIG’s preaward review program provides information to contracting
                                      officers (COs) for use in negotiating contracts. The pre-decisional, advisory
                                      nature of preaward reviews distinguishes them from other audits. This
                                      program provides vital and current information to COs, enabling them to
                                      significantly improve the government’s negotiating position and to realize
                                      millions of dollars in savings on negotiated contracts. This period, the OIG
                                      performed preaward reviews of 41 contracts with an estimated value of $3.7
                                      billion. We recommended that more than $299 million of funds be put to
                                      better use. Four of the more significant Multiple Award Schedule (MAS)
                                      contracts we viewed had projected government-wide sales totaling $1.7
                                      billion. The review findings recommended that $228 million in funds be put
                                      to better use. The reviews disclosed that these vendors offered prices and
                                      discounts to GSA that were not as favorable as the prices and discounts
                                      other customers received from these vendors. For example, one vendor for
                                      products did not disclose all of its customers or its best discounts, and did
                                      not provide complete information about rebates and other concessions it
                                      offers commercial customers. Another product vendor disclosed incomplete
                                      and inaccurate information about discounts, volume pricing, rebates, and
                                      prompt payment terms. In another instance, although GSA is the vendor’s
                                      largest customer, its commercial customers generally receive better pricing.
                                      Finally, one vendor for services did not provide current information and
                                      granted lower labor rates to healthcare and non-Federal government
                                      customers.

                                      There are more than 16,500 contracts with over $36 billion in business
                                      annually under GSA’s procurement programs. The Office of Management
                                      and Budget (OMB) has long recognized the increasing dollar value of GSA’s
                                      contract activities and our limited resources in providing commensurate
                                      audit coverage. Through the Federal Acquisition Service (FAS) contract
                                      program revenue, OMB officials have provided us additional financial
                                      support to increase our work in this area. These funds enabled us to hire
                                      additional staff to support expanded contract review activities including,
                                      primarily, an increase in preaward contract reviews, as well as more
                                      contract performance reviews that evaluate contractors’ compliance with


2 Semiannual Report to the Congress
    Management Challenges



Acquisition Programs (continued)
pricing, billing, contract terms, and periodic program evaluations to assess
the efficiency, economy, and effectiveness of contracting activities. We now
allocate about 50 percent of our resources to contract reviews. During this
reporting period, management decisions were made on 34 preaward
reports, which recommended that over $603 million of funds be put to better
use. Management agreed with all of the recommended savings.

Implementation Review of Award for Streamlined Technology
Acquisition Resources for Services (STARS) Governmentwide
Acquisition Contract (GWAC), Report Number A050213/Q/6/P07001,
Dated December 27, 2006
Report Number A090024, dated March 31, 2009

While responsibility for implementing appropriate corrective action as the
result of audit report recommendations resides with Agency management, the
OIG performs some reviews to determine whether appropriate corrective
action as stated in the proposed action plan has been taken by management.
The scope of the review is limited to an examination of management’s actions
in response to the recommendations, but includes appropriate testing to
ensure that reported conditions have been corrected by the actions taken.

We performed an implementation review of management’s corrective actions
taken in response to five recommendations included in the audit report of the
Federal Acquisition Service’s (FAS’s) administration of the 8(a)1 Streamlined
Technology Acquisition Resources for Services (STARS) Governmentwide
Acquisition Contract (GWAC) through the Small Business Governmentwide
Acquisition Center (Center). The original audit report, issued December 27,
2006, presented the results of a review to determine if the Center’s existing
controls over the administration of the STARS contracts were adequate to
provide reasonable assurance that the contracts were properly utilized.
Management’s action plan addressed the report’s recommendations and
identified specific steps to be completed with the assistance of the Center to
improve the controls and oversight of the 8(a) STARS program. During the
review process, management responded that the Center had implemented all
audit recommendations.




1   Section 8(a) of the Small Business Act (15 U.S.C. 637(a)) established a program that
    authorizes the Small Business Administration (SBA) to enter into all types of contracts under
    the Federal Acquisition Regulation Part 19.8 with other agencies and subcontracts for
    performing those contracts to firms eligible for program participation. The SBA’s contractors
    referred to as “8(a) contractors” are small businesses concerns which are unconditionally
    owned and controlled by one or more socially and economically disadvantaged individuals.



                                                         October 1, 2008 - March 31, 2009 3
                                       Management Challenges



                                      Acquisition Programs (continued)

                                      FAS’s STARS GWAC is a small, disadvantaged 8(a) business set-aside
                                      contract for technology solutions enabling customer agencies to fulfill their
                                      information technology (IT) services and services-based solutions
                                      requirements, and at the same time receive credit toward socioeconomic
                                      goals through utilizing small businesses that are 8(a) certified. In turn, the
                                      program encourages small businesses to develop, and strives to provide
                                      them an opportunity to become “best in class” technology providers. On
                                      behalf of customer agencies, delegated ordering contracting officers can
                                      procure a variety of IT services and associated products from 8(a) STARS
                                      vendors in eight functional areas.

                                      The audit report’s recommendations focused on the Center’s need to: (1)
                                      clarify the contract language regarding limitations on other direct costs; (2)
                                      address out of scope task orders; (3) focus on reviewing the highest risk task
                                      orders; (4) develop a standardized statement of work review process; and, (5)
                                      develop a standardized procedure for reviews of subcontracting reports.

                                      Based on our review, we determined that the Center has taken appropriate
                                      corrective actions as stated in the action plan in response to the original
                                      report’s recommendations to mitigate risk and enhance the integrity of the
                                      8(a) STARS program. While the Center has implemented management
                                      controls to satisfy the objective of this review, we noted areas for improvement
                                      that could be utilized to further strengthen controls already in place. Overall,
                                      we found that the Center has made significant positive changes to the
                                      controls of the program since the original report, and commend its efforts
                                      to manage the program risks.

                                      Information Technology
                                      GSA is in the process of replacing or upgrading a number of its legacy
                                      information systems to improve performance and take advantage of
                                      technological advances. Since GSA has had difficulty sharing usable data
                                      between systems, many of the new IT projects are intended to go beyond
                                      automating current business functions and to create real change in the way
                                      that GSA does business. However, GSA systems development projects have
                                      typically experienced significant schedule delays and cost overruns, the need
                                      for frequent redesign, and a prolonged period of time in development.

                                      FY 2009 Office of Inspector General Information Technology Security Audit
                                      of USAccess, GSA’s Homeland Security Presidential Directive 12 System
                                      Report Number A080173/Q/T/P09001, dated March 26, 2009

                                      To fulfill the Homeland Security Presidential Directive 12 (HSPD-12) requirement
                                      for a mandatory, government-wide standard for secure and reliable forms of
                                      identification, GSA established USAccess in 2007. USAccess is an operational
                                      system maintained for GSA by a Federal contractor and houses biographic
                                      and biometric information necessary to verify the identities of Federal


4 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

employees and contractors. This system enables GSA to produce identification
cards for Federal employees and contractors, allowing physical access to
Federal buildings and logical access to information systems. This GSA internal
system solution provides enrollment, Personal Identity Verification (PIV) card
issuance, card production, public key infrastructure (digital certification), and
scheduling services for over 60 Federal agencies. It is the only system
managed by the Agency designated as “high risk.”

The objective of our audit was to determine if GSA had implemented
management, operational, and technical security controls to effectively
manage risks inherent in a “high risk” system, in accordance with the
Federal Information Security Management Act of 2002 (FISMA) and GSA’s
IT Security Program. This interim audit report of information security for
USAccess was conducted as the first phase under an ongoing, broader-
scope audit of the implementation of HSPD-12 in GSA that was initiated
in 2008.

The Federal Acquisition Service (FAS) has implemented many security controls
for the USAccess system that are required by FISMA and GSA’s IT Security
Program. Security officials are also taking actions to enhance the security
posture of USAccess by performing more detailed technical control tests,
consolidating databases, and enhancing system backup procedures. Risk
management practices, however, could be improved by including control
assessments for system web services in ongoing monitoring and oversight
processes. For example, we found that security controls for important Internet-
based technologies used by USAccess were not being assessed as part of
monitoring activities. Additionally, a third party software application, while not
connected to USAccess or processing system data, had been implemented in
the USAccess environment without an assessment to determine whether the
application met GSA’s IT’s security policy. Further, improvements are needed in
operational controls to ensure that appropriate contractor staffs are trained in
their roles and responsibilities for implementing GSA security policies and
procedures and for protecting sensitive information. FAS can also better prepare
for the system’s continuity of operations by performing a comprehensive test of
the IT contingency plan that includes the disaster recovery backup facility. Finally,
we found a need to strengthen technical controls for USAccess databases,
websites, and operating systems to ensure the protection of sensitive data.

We recommended that the Commissioner of the Federal Acquisition Service
take actions to:

• Strengthen management controls related to system certification and
  accreditation and oversight of third party-provided applications by:

  o Ensuring that tests performed as part of continuous monitoring activities
    include all system web services;


                                                 October 1, 2008 - March 31, 2009 5
                                       Management Challenges



                                      Information Technology (continued)
                                        o Including requirements for contractors to provide adequate details related
                                          to security assessment methodologies and results in future statements of
                                          work and task orders for certification and accreditation; and,
                                        o Evaluating the risk associated with using the TimeTrade commercial-off-
                                          the-shelf application within the USAccess infrastructure, and ensuring
                                          that the application meets GSA’s IT security requirements.

                                      • Enhance the operational readiness of USAccess by:

                                        o Performing a comprehensive test of the IT contingency plan, to include
                                          the disaster recovery site and other organizations with which USAccess
                                          has system interconnections; and,
                                        o Providing contractors with security responsibilities with annual GSA
                                          security awareness and privacy training, and role-based training for IT
                                          contingency planning and incident response purposes.

                                      • Improve technical controls to protect sensitive system information and
                                        maintain the security of USAccess by:

                                        o Working with vendors to ensure that security patches are tested and
                                          implemented in a timely manner;
                                        o Performing comprehensive testing of all USAccess web applications to
                                          ensure that these applications are securely configured;
                                        o Assessing the need to migrate USAccess websites from the current
                                          dotcom (.com) domain to a dotgov (.gov) domain; and,
                                        o Strengthening change management processes to ensure that system
                                          updates do not result in the introduction of security vulnerabilities.

                                      The Federal Acquisition Service Commissioner concurred with our findings
                                      and recommendations.

                                      Management Controls
                                      Multiple management controls and extensive supervisory reviews have been
                                      replaced, through streamlining efforts, by fewer and broader controls, making
                                      it essential that the remaining control processes be emphasized and
                                      consistently followed. Streamlined processes have helped GSA achieve its
                                      goal of serving customers more quickly and efficiently; however, the Agency is
                                      exposed to the risk of mismanagement and abuse if program officials do not
                                      ensure the faithful application of existing safeguards.

                                      Financial Statement Audit and Related Reviews
                                      Audit of the General Services Administration’s Fiscal Year 2008 and
                                      2007 Financial Statements
                                      Report Number A080108/B/F/F09004, dated December 18, 2008

                                      With the passage of the Chief Financial Officer’s Act of 1990, Congress and
                                      OMB have established a framework for financial audits and reviews designed

6 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)
to enhance the Federal government’s financial management and reporting
practices. Summarized below are the results of our financial and financial-
related reviews.

As in past years, GSA’s Financial Statement Audit was performed by an
independent public accounting firm (IPA), with oversight, support work, and
guidance provided by the OIG. The firm issued an unqualified opinion on the
balance sheets of GSA, the Federal Buildings Fund (FBF), and the
Acquisition Services Fund (ASF), as of September 30, 2008 and 2007, and
the related consolidated and individual statements of net cost, changes in net
position, the combined and individual statements of budgetary resources for
the years then ended, and the Office of Inspector General’s Report on
Internal Controls over Performance Measures.

As a result of the audit, the IPA identified a material weakness relating to
financial management systems, internal controls, and financial reporting.
Since fiscal year 2004, the IPA has reported in its Report on Internal Control
significant deficiencies surrounding the GSA’s financial management
systems and processes, and substantial transaction errors resulting from
insufficient controls related to reporting of budgetary accounts and balances.
During fiscal year 2008, similar issues persist as GSA continues to lack
effective controls over its accounting and business processes to ensure
budgetary transactions are properly recorded, processed, and summarized
to permit the timely preparation of financial statements in accordance with
generally accepted accounting principles. Moreover, while preparing fiscal
year 2008 financial statements, GSA recorded more than 344 top-side
adjustments, each representing multiple accounting transactions with an
aggregate value of more than $5.5 billion, in order to produce its financial
statements.

In addition to the material weakness, the IPA identified one significant
deficiency concerning Information Technology controls. Specifically, during FY
2008, the IPA identified individual security weaknesses across multiple
systems that, when aggregated, constitute three common cross-cutting
themes – segregation of duties, user and administrator logical access, and
activity monitoring. These control deficiencies create significant risks and
vulnerabilities to financial data and GSA systems. Furthermore, the IPA found
reportable instances of non-compliance in which GSA’s financial
management systems did not substantially comply with the requirements of
the Federal Financial Management Improvement Act.

The material weakness deficiencies emphasize Agency management’s
need to:

• Implement agency-wide procedures requiring full commitment to a sound
  budgetary accounting process that is in accordance with Federal accounting
  standards;

                                             October 1, 2008 - March 31, 2009 7
                                       Management Challenges



                                      Management Controls (continued)
                                      • Expand upon the implementation of OMB Circular A-123, Appendix A to
                                        address root causes of budgetary reporting control weaknesses;

                                      • Utilize the Office of the Chief Financial Officer (OCFO) to serve as the
                                        primary coordinator;

                                      • Continue to implement an integrated financial management system for use by
                                        program offices to promote consistency and reliability of financial information;

                                      • Fully utilize the functionalities of Pegasys to perform complete budgetary
                                        transaction processing and financial reporting in compliance with Federal
                                        financial reporting requirements; and,

                                      • For the financial statement preparation process, (a) minimize the number of
                                        top-side adjustments at period end by instituting a process to ensure that
                                        regional program offices record valid transactions timely, and (b) enhance
                                        the documentation requirement related to top-side adjustments to help
                                        facilitate the review and monitoring process.

                                      Further, to address the reportable condition deficiencies, GSA’s Office of the
                                      Chief Information Officer should revisit the design of existing processes
                                      around segregation of duties, account management, and logging and
                                      monitoring, and institute agency-wide corrective action, specifically:

                                      • Develop and implement robust segregation of duties policies that can
                                        prevent future incompatible duties issues across multiple systems,
                                        reducing the risk that persons will be granted roles that allow them to
                                        perform multiple critical transactions that could result in erroneous or
                                        fraudulent activity;

                                      • Coordinate an implementation plan to strengthen the OCFO Accounts
                                        Payable system’s general and application security controls;

                                      • Develop and implement an agency-wide policy and procedure that
                                        establishes a standard user account request, authorization, creation, and
                                        removal process. Additionally, separated, inactive, and shared user
                                        accounts should be continually monitored and removed as necessary; and,

                                      • Perform an agency-wide review of GSA monitoring controls over significant
                                        financial systems and develop/implement new procedures, or improve
                                        upon existing procedures to define events to be monitored, procedures for
                                        following up on suspicious events, and documentation of log reviews.

                                      Report on Internal Controls Over Performance Measures
                                      Report Number A090022/F/F09002, dated November 7, 2008

                                      The OIG conducted the portion of GSA’s FY 2008 Financial Statement Audit
                                      related to internal controls over performance measures. The report noted that

8 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)
the internal controls designed by the OCFO over GSA’s performance
measure data are operating effectively. Specifically, we found that, in
accordance with GSA Policy, the OCFO performed and documented the
required review of Agency performance measure data, and that the
conclusions therein were adequately supported.

Reports on Applying Agreed-Upon Procedures

Re: FY 2008 Environmental Liabilities
Report Number A080108/S/F/S09001, dated November 4, 2008

Re: FY 2008 Loss Contingencies
Report Number A080108/S/F/S09002, dated November 14, 2008

Re: FY 2008 Internal Controls over Payroll
Report Number A080093/B/F/F09001, dated October 14, 2008

In support of GSA’s Financial Statement Audit, we performed agreed-upon
procedures reviews over GSA’s Fiscal Year 2008 environmental liabilities,
legal loss contingencies, and internal controls over payroll.

We reconciled the Office of General Counsel’s environmental liability letter
and supporting spreadsheets to the Public Buildings Service’s summary
schedules based on documents prepared by regional offices. In our review of
legal loss contingencies, we tested 100 percent of claims for $10 million or
more to determine the Agency’s planned response to the litigation and, if a
possible loss was perceived, whether Office of General Counsel personnel
could provide explanations of the estimates. Additionally, we also verified
procedures for payroll functions and tested automated payroll system data
files for individual employees to determine whether key internal controls are
working as intended.

We provided the relevant information on the procedures we performed to the
independent public accounting firm during October and November, 2008.

Limited Audit of the Fiscal Year 2008 Federal Managers’ Financial
Integrity Act Section 2 and Section 4 Assurance Statements
Report Number A080118/A/F/F09003, dated November 14, 2008

The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
GSA management to provide assurance to the President and the Congress
that Agency resources are protected from fraud, waste, mismanagement, and
misappropriation. FMFIA Section 4 relates to the Chief Financial Officer’s
disclosure of nonconformance with Federal financial management system
policies and standards.



                                             October 1, 2008 - March 31, 2009 9
                                        Management Challenges



                                       Management Controls (continued)

                                       GSA’s Management Control and Oversight Council uses assurance
                                       statement questionnaires submitted by Regional Administrators and Heads of
                                       Services and Staff Offices as a basis for developing the Administrator’s
                                       assurance statement.

                                       Each year, we review the Agency’s FMFIA process to determine whether
                                       management adequately disclosed all known control weaknesses and non-
                                       conformances in the Agency’s programs, operations, and systems. In
                                       reviewing the FMFIA assurance statement questionnaires submitted by
                                       management for FY 2008, we noted weaknesses reported in the following
                                       areas: budgetary reporting, systems integration, and accounting for payables
                                       and receivables. The independent public accounting firm auditing GSA’s
                                       financial statements also identified budgetary reporting weaknesses
                                       regarding unfilled customer orders and undelivered customer orders, as well
                                       as system security weaknesses relating to segregation of duties, account
                                       management, and activity monitoring.

                                       Federal Buildings Fund
                                       As the landlord for the civilian Federal government, GSA is being challenged
                                       to provide quality space to agencies using an aging, deteriorating inventory of
                                       buildings. GSA needs a comprehensive strategy to enable an evaluation of its
                                       building projects nationwide to make the best use of available funds to deliver
                                       high performance workplaces on schedule and within budget.

                                       Response to Congressional Request
                                       Eleanor Holmes Norton, Chairwoman for the Subcommittee on Economic
                                       Development, Public Buildings and Emergency Management, within the
                                       Committee on Transportation and Infrastructure, asked the GSA Office of
                                       Inspector General to research two issues pertaining to improving the
                                       efficiency of the GSA National Capital Region’s (NCR’s) construction and
                                       lease processes. The issues we examined were the effect of the Davis-Bacon
                                       Act on construction projects and identifying violations of the Act and the
                                       leasing process, specifically the steps and procedures between the lease
                                       contract award and the execution of the lease that may reduce efficiency or
                                       add additional time to the process.

                                       The Davis-Bacon Act requires that the laborers and mechanics working on
                                       Federal construction projects receive compensation comparable to the
                                       prevailing wages for similar jobs in the same geographic areas. The wage
                                       determinations are based on periodic surveys of construction project workers
                                       conducted by the Department of Labor. Department of Labor regulations
                                       require contractors to submit a weekly copy of all payrolls to the Federal
                                       agency contracting for or financing the construction project, accompanied by
                                       a signed “Statement of Compliance” indicating that the payrolls are correct
                                       and complete and that each laborer or mechanic has been paid not less than


10 Semiannual Report to the Congress
 Management Challenges



Federal Buildings Fund (continued)

the proper Davis-Bacon prevailing wage for the work performed. The
Department of Labor estimated that completing a weekly payroll report for
each employee requires approximately 56 minutes.

In order to determine the effect the Act has on the performance of construction
projects, and to identify violations of the Act, we met with staff from the GSA
Public Buildings Service (PBS) that have responsibility for construction
projects in NCR, and examined Davis-Bacon reporting for projects that were
ongoing during August and September 2008. We reviewed weekly payroll
records for all contractors and subcontractors for the eight major construction
projects underway during the August/September 2008 time period.

Our review of weekly payroll records found that, in the vast majority of reports
received, the reports conform to Department of Labor standards for Davis-
Bacon Act reporting, and no violations of the Act were found. However, we did
find that the Act’s reporting requirements are burdensome for the contractors.
The contractors and subcontractors must take significant time to produce and
report each week the payroll contingencies for each employee, and the prime
contractor has the additional burden of managing, monitoring, and enforcing
compliant reporting on the subcontractors that work for it.

We also assessed the efficiency of NCR’s leasing process, identifying the
steps and procedures that occur between lease award and execution.
Specifically, we reviewed applicable regulations, policies, and procedures;
examined lease file documentation for a sample of 50 leases; and reviewed
corresponding related documentation for the sample leases. We also met with
PBS officials and surveyed PBS employees involved in the lease process to
obtain insight into the rationale behind each step in the process and to identify
possible impediments to timely lease execution. This process allowed us to
highlight those steps and procedures that reduce efficiency and/or add
unnecessary time to processing timeframes for the leases in our sample.

We determined that while NCR’s internal quality assurance and compliance
process steps are necessary to ensure accurate, legally sufficient, and
appropriately funded leases, there were significant delays in verifying the
accuracy of the occupancy agreement to the lease documents. We found,
doing a limited scope analysis due to the availability of data, that the average
internal process time for the sampled leases was 79 calendar days. Lease
execution dates were also impacted by unique issues such as tenant agency
delays, legal considerations, and obtaining required supporting lease
documents from the lessor. For example, unresolved issues for one lease
resulted in a timeframe of 268 days, while a sensitive, high profile project was
accomplished in just 3 days. NCR recognizes the inefficiencies in the process
and is considering remedial actions.




                                             October 1, 2008 - March 31, 2009 11
                                        Management Challenges



                                       New Initiatives
                                       The Government has seen significant changes over the last six months.
                                       Specifically, the OIG is directly involved in two initiatives impacting GSA’s
                                       Federal Acquisition Service and Public Buildings Service. In response to
                                       recent legislative actions regarding a new Federal Acquisition Regulation
                                       (FAR) rule that requires government contractors to disclose to agencies’
                                       OIGs credible evidence of violations of Federal criminal law under U.S.C.Title
                                       18 or the civil False Claims Act, we initiated a website for contractor self-
                                       reporting, and internal procedures for evaluating such disclosures. In
                                       addition, the American Recovery and Reinvestment Act of 2009 (Recovery
                                       Act) will require a full range of OIG oversight activities including contract,
                                       financial, and internal audits, as well as criminal investigations, as GSA
                                       makes use of its Recovery Act funding to renovate and repair Federal
                                       buildings, construct land ports of entry, and acquire fuel-efficient vehicles.

                                       New FAR Rule for Contractor Disclosure
                                       Effective December 12, 2008, the Civilian Agency Acquisition Council and the
                                       Defense Acquisition Regulations Council (Councils) agreed on a final rule
                                       amending the FAR to amplify the requirements for a contractor code of
                                       business ethics and conduct, an internal control system, and disclosure to the
                                       Government of certain violations of criminal law, violations of the civil False
                                       Claims Act, and significant overpayments. The final rule implements the Close
                                       the Contractor Fraud Loophole Act, Public Law 110–252, Title VI, Chapter 1.

                                       Under the rule, a contractor must timely disclose to the relevant agency’s
                                       Office of Inspector General, in connection with the award, performance, or
                                       closeout of a Government contract performed by the contractor or a
                                       subcontract awarded thereunder, credible evidence of a violation of Federal
                                       criminal law involving fraud, conflict of interest, bribery, or gratuity violations
                                       found in Title 18 of the United States Code, or a violation of the civil False
                                       Claims Act. The rule provides for the suspension or debarment of a contractor
                                       for knowing failure by a principal to timely disclose, in writing, such violations.
                                       The statute defines a covered contract to mean ‘‘any contract in an amount
                                       greater than $5,000,000 and more than 120 days in duration.’’ The final rule
                                       also provides that the contractor’s internal control system shall be established
                                       within 90 days after contract award, unless the contracting officer establishes a
                                       longer time period (see FAR 52.203–13(c)). The internal control system is not
                                       required for small businesses or commercial item contracts. GSA contractors
                                       may make the required disclosures through the GSA OIG website.

                                       The revision to the FAR is a reversal of long-standing policies of voluntary
                                       disclosure. The Justice Department and the National Procurement Fraud Task
                                       Force have said that contractors have largely ignored voluntary disclosure
                                       policies for the past decade. It is anticipated that this rule will encourage
                                       contractors to institute vigorous processes for identifying and reporting internal
                                       criminal allegations and quickly reviewing the merits of those claims.



12 Semiannual Report to the Congress
 Management Challenges



New Initiatives (continued)
The GSA Office of Inspector General has developed a website for contractor
self-reporting and internal procedures for processing, evaluating, and acting
on the disclosures made by contractors. The Office of Audits, Office of
Investigations, and Office of Counsel to the Inspector General will work
together on disclosures made to the OIG. Each disclosure will be examined
and a determination made as to what actions are warranted. During this
reporting period we received three disclosures.

In cases involving substantial overpayments, the contractor’s disclosure can
be made to either the OIG or the GSA contracting officer. The Office of Audits
is working with the GSA Federal Acquisition Service to insure disclosures
made to GSA contracting officers are forwarded to the OIG. The OIG will work
closely with the GSA contracting officers and the Federal Acquisition Service
to insure these disclosures are reviewed fully.

Oversight of GSA’s Implementation of the American Recovery
and Reinvestment Act
The Recovery Act was enacted to create jobs and stimulate the economy
through a variety of measures that modernize the Nation’s infrastructure and
improve energy independence. The Recovery Act provides GSA with funding
to renovate and repair Federal buildings to improve energy efficiency,
construct land ports of entry (LPOE) and acquire fuel-efficient vehicles.
Specifically, the Recovery Act provides $5.55 billion to the Federal Buildings
Fund, of which $750 million will be used for Federal buildings and
Courthouses, $300 million for LPOEs, and $4.5 billion for measures
necessary to convert Federal buildings to High-Performance Green Buildings.
The Recovery Act requires that $5 billion of these funds be obligated by
September 30, 2010, the remainder to be available until September 30, 2011.

Additionally, the Recovery Act provides $300 million to improve the fuel
efficiency of GSA’s fleet, which will remain available until September 30,
2011. A spending plan, an inventory of the Federal fleet, and a strategy to
substantially increase energy efficiency are required within 90 days of
enactment. The language requires quarterly reports on obligations beginning
June 30, 2009.

The Recovery Act also provides $7 million to the GSA OIG for oversight
activities, to be available until September 30, 2013.

  OIG Oversight

The Recovery Act presents heightened risk for GSA. When organizations face
large workload increases combined with short deadlines, the fast pace and
pressure can often undermine the organization’s management controls and
thus create an environment that provides more opportunities for fraud, waste,
and abuse to occur.


                                            October 1, 2008 - March 31, 2009 13
                                        Management Challenges



                                       New Initiatives (continued)

                                       The Recovery Act provides GSA with its largest amount of construction
                                       funding ever, and the proposed timeframes to award the funding create the
                                       need to develop and award contracts quickly. This is a major undertaking, as
                                       GSA typically receives approximately $1.3 billion of construction funds per
                                       year and its resources for managing the projects and awarding and
                                       administering the contracts is geared toward this lower funding level. In
                                       addition, the $300 million for fuel-efficient vehicles must be incorporated into a
                                       business process that is usually driven by fulfilling customer needs as they
                                       arise rather than stockpiling vehicles until they are needed.

                                       Historically, GSA has confronted a number of challenges that could impact its
                                       implementation of the Recovery Act. Specifically, in the construction program,
                                       the OIG has noted deficiencies relating to cost escalations, claims, and
                                       project delays, which result in additional costs to the projects as well as lost
                                       rental revenue. In the area of financial reporting, we have noted, via the
                                       independent public accounting firm’s financial statement audit, GSA’s
                                       challenges in ensuring that the financial statements are complete and
                                       accurate. For example, the FY 2007 financial statements failed to report
                                       $276 million of building-related contractual obligations, including one
                                       construction contract for $188 million, as well as $220 million of contractual
                                       obligations for vehicle purchases. Both contracting and performance
                                       irregularities have potential to occur in this environment.

                                       The oversight of GSA’s implementation of the Recovery Act will require a full
                                       range of oversight activities including contract, financial, and internal audits,
                                       as well as criminal investigations, over the long term. As part of its core
                                       oversight activities, the GSA OIG performs internal audits that evaluate GSA
                                       functions and programs for economy, efficiency, and effectiveness; contract
                                       audits of proposals as well as high value contract modifications and claims
                                       under PBS construction contracts; and investigations of criminal activities that
                                       impact GSA programs. In addition, due to the nature of construction, the need
                                       for oversight will extend beyond the funding period until the projects are
                                       completed and claims have been settled.




14 Semiannual Report to the Congress
Promoting and Protecting Integrity



   GSA is responsible for providing working space for one million Federal
   employees. The Agency also manages the transfer and disposal of excess
   and surplus real and personal property and operates a government-wide
   service and supply system. To meet the needs of customer agencies, GSA
   contracts for billions of dollars worth of equipment, supplies, materials, and
   services each year. We conduct reviews and investigations in all these areas
   to ensure the integrity of the Agency’s financial statements, programs, and
   operations, and that the taxpayers’ interests are protected. In addition to
   detecting problems in these GSA programs and operations, the OIG is
   responsible for initiating actions to prevent fraud, waste, and abuse and to
   promote economy and efficiency. When systemic issues are identified during
   investigations, they are shared with GSA management for appropriate
   corrective actions. During this period, criminal, civil, and other monetary
   recoveries totaled more than $54.4 million.

   Significant Civil Actions and Criminal Investigations
   Armor Holdings Products LLC Agrees to Pay $30 Million for the Sale
   of Defective Zylon Bullet-Proof Vests
   On October 6, 2008, Armor Holdings Products LLC agreed to pay the
   Government $30 million to resolve allegations that it violated the False Claims
   Act by knowingly manufacturing and selling defective Zylon bullet-proof vests.
   The Government alleged that Armor Holdings manufactured and sold Zylon
   bullet-proof vests despite possessing information showing that the Zylon
   materials degraded quickly over time and were not suitable for ballistic use.
   The Armor Holdings vests were purchased by the Federal Government, and
   by various state, local, and tribal law enforcement agencies that were partially
   reimbursed by the United States under the Justice Department’s Bulletproof
   Vest Partnership program.

   The investigation found that Armor Holdings’ Zylon vests contained either
   woven Zylon or a Zylon laminate insert called Z Shield. The Zylon fiber used
   in both types of vests was manufactured by Toyobo Co. Ltd. In July 2007, the
   Government sued Toyobo for its manufacture and sale of Zylon to U.S.-based
   body armor manufacturers. The Z Shield insert containing Zylon was
   manufactured by Honeywell Corporation. In June 2008, the Government sued
   Honeywell for its manufacture and sale of Z Shield to Armor Holdings.

   This settlement is part of a larger investigation of the body armor industry’s
   use of Zylon in body armor. As part of the agreement, Armor Holdings has
   pledged its cooperation in the government’s ongoing investigation. The
   Government previously settled with three other participants in the Zylon body
   armor industry for more than $16 million.

   This settlement with Armor Holdings is the result of an ongoing investigation
   by the Justice Department’s Civil Division, the U.S. Attorney’s Office for the
   District of Columbia, the GSA OIG, the Department of Homeland Security
   OIG, the Treasury Inspector General for Tax Administration, the Defense


                                                October 1, 2008 - March 31, 2009 15
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       Criminal Investigative Service, the U.S. Army Criminal Investigation
                                       Command, the Air Force Office of Special Investigations, the Department of
                                       Energy OIG, the U.S. Agency for International Development OIG, the Federal
                                       Bureau of Investigation, and the Defense Contracting Audit Agency.

                                       AMEC Construction Management Inc. Agrees to $11.7 Million
                                       Civil Settlement
                                       On January 29, 2009, AMEC Construction Management Inc. (AMEC), formerly
                                       known as Morse Diesel International, Inc. (MDI), agreed to pay GSA
                                       $11,710,335 and forfeit $7,329,921, for a total of $19,040,256. The $11,710,335
                                       consisted of $8,010,335 for fraud counterclaims and $3,700,000 for re-
                                       procurement costs.

                                       AMEC/MDI was awarded four GSA Federal construction contracts for
                                       construction relative to Federal Courthouses in St. Louis, MO, San Francisco,
                                       CA, and Sacramento, CA. A joint audit and investigation of AMEC found that
                                       AMEC provided falsified invoices, which allowed AMEC to receive payments
                                       for work that had not been accomplished both in Missouri and California. It
                                       was found that MDI front-loaded over 2 million dollars in contract value using
                                       falsified invoices, false documents and false statements. AMEC pled guilty for
                                       presenting a false bond claim in the St. Louis Courthouse construction and
                                       was sentenced on December 12, 2000. AMEC later pled guilty on December
                                       4, 2001 for false claims in California and was sentenced on March 19, 2002.

                                       During civil proceedings it was also discovered that AMEC was getting a
                                       kickback from its bonding agent’s commissions. On July 15, 2005, the Court
                                       issued an opinion granting summary judgment on the Government’s claim for
                                       violation of the Anti-Kickback Act. On January 26, 2007, the Court issued an
                                       opinion granting summary judgment on GSA’s claim under the Special Plea in
                                       Fraud and the False Claims Act for the false bond documents submitted for
                                       payment. On October 31, 2007 and November 16, 2007, the Court issued a
                                       decision assessing penalties and damages against AMEC for violation of the
                                       False Claims and Anti-Kickback Acts. Subsequently, AMEC and the
                                       Government entered into negotiations to resolve amicably the claims of both
                                       parties relating to these matters.

                                       Pursuant to this settlement agreement, moneys held by GSA in retainage
                                       owed to AMEC were forfeited in the amount of $10,560,140, resulting in a cost
                                       recovery. AMEC also forfeited all pending claims against GSA for the above
                                       projects, resulting in approximately $83.5 million dollars in cost avoidance.

                                       Tifco Industries, Inc., Agrees to Pay $1.6 Million to Resolve Allegations
                                       Involving Sales of Prohibited Goods
                                       On January 27, 2009, Tifco Industries, Inc. (TIFCO), entered into a civil
                                       settlement agreement with the Government to resolve allegations of violations


16 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   of the False Claims Act. Specifically, it was alleged that TIFCO sold and
   delivered products to the Government under a GSA contract that did not
   comply with Trade Agreements Act (TAA) regulations and/or certifications
   within the contract, in violation of the False Claims Act. TIFCO agreed to pay
   the Government $1,624,385 to resolve these allegations.

   This investigation was initiated when it was reported that TIFCO delivered
   “Modular Emergency Response Kits” (MERKS) that were not officially ordered
   by Army staff. Pursuant to this contract with GSA, TIFCO sold MERKS to the
   U.S. Army for delivery at Fort Gordon, Georgia that were from non-designated
   countries of origin, in violation of the TAA, which bars the procurement of
   goods from non-designated countries by the U.S. and its agencies. The
   investigation and subsequent physical inspections determined that the
   MERKS contained items not included on the TIFCO GSA contract and items
   that were manufactured in China and Taiwan.

   Inter-Tel, Inc. Civil Settlement
   On February 17, 2009, Mitel, Inc. (formerly Inter-Tel, Inc. (INTERTEL)) signed
   a civil settlement agreement with the U.S. Department of Justice (DOJ),
   wherein it agreed to pay $1.3 million to resolve allegations that the company
   violated the False Claims Act by selling office products manufactured in non-
   TAA compliant countries to the Government. The investigation revealed that
   INTERTEL sold products from China under their Multiple Award Schedule
   with GSA. This constituted a violation of the TAA. During the investigation, a
   voluntary disclosure of TAA problems uncovered at INTERTEL was made to
   GSA’s Counsel to the Inspector General. This disclosure listed products
   manufactured in China and sold to the Government.

   American Systems Corporation Agrees to Pay $810,000 to Government
   A civil investigation was initiated when it was alleged that Business Plus
   Corporation (BPC) and LEAD Industries, Inc. (LEAD), may have submitted
   false claims to GSA for the installation of computer work stations at the U.S.
   Army Armament Research, Development & Engineering Center, located at
   the Picatinny Arsenal in New Jersey. In 2002, American Systems Corporation
   (ASC) purchased BPC. The investigation disclosed that under the direction of
   BPC, LEAD had its employees create invoices that claimed that LEAD had
   installed computer workstations when in reality it had only performed general
   construction work, rather than any of the IT-related tasks listed under its
   contract. On March 11, 2009, ASC agreed by civil settlement to pay the
   Government $810,000 for inaccurately billing for services and products under
   a GSA contract.

   Government Employee Pleads Guilty to Bribery
   An investigation was initiated when it was discovered that approximately
   $84,000 had been charged on a government purchase card of a GSA


                                                October 1, 2008 - March 31, 2009 17
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       employee, who had been absent from work for several months on annual and
                                       sick leave. These charges were submitted by the owner of the Money’s
                                       Refrigeration and Daniel Construction companies. The owner of these
                                       companies was a Department of Treasury employee.

                                       A U.S. Tax Court employee, who was in charge of awarding construction
                                       contracts at the U.S. Tax Court, Washington, D.C., became a cooperating
                                       witness (CW) when he was arrested in connection with this investigation. He
                                       agreed to record telephone conversations and meetings with the Treasury
                                       employee concerning the award of construction projects at the U.S. Tax Court.

                                       The investigation found that the Treasury employee submitted two inflated
                                       proposals on behalf of one of his companies, Daniel Construction, for the
                                       renovation of office space at the U.S. Tax Court, and the CW awarded both
                                       contracts to him in exchange for $55,000 in bribe payments. On October 6,
                                       2008, the Treasury employee pled guilty to bribery and on February 5, 2009,
                                       he was sentenced to 2 1/2 years of incarceration; 3 years of supervised
                                       release; fined $7,500; and ordered to pay $2,250 in restitution to the
                                       Department of Treasury. He was also ordered to pay asset forfeiture in the
                                       amount of $95,000.

                                       On August 14, 2008, the U.S Tax Court employee pled guilty to conspiracy,
                                       and on March 5, 2009, was sentenced to 1 1/2 years incarceration, 3 years
                                       supervised release, and ordered to pay restitution in the amount of $24,143.

                                       Army Specialist Pleads Guilty to Theft of Government Property
                                       An investigation was initiated when it was reported that unauthorized
                                       purchases were made by an Army specialist using the GSA Advantage
                                       System. The investigation found that the specialist, while at Fort Campbell,
                                       Kentucky, was purchasing numerous government items, to include over 45
                                       laptop computers (worth over $98,564), from the GSA Advantage System
                                       with his unit’s Department of Defense Account Activity Code. Once the items
                                       were ordered, the employee entered the GSA Advantage System, from his
                                       personal Yahoo email account, to divert the shipping address from the Army
                                       to various locations, including his home address.

                                       A search of the specialist’s residence led to the seizure of numerous
                                       Advantage items which had been purchased with Army funds. He admitted he
                                       used Army money to purchase products which he sold for his own personal
                                       benefit. On September 22, 2008, he signed a plea agreement and was
                                       sentenced to four months confinement and a reduction to E-1, and ordered to
                                       pay a fine in the amount of $7,250.




18 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   GSA Supervisor Pleads Guilty to Theft of Government Funds,
   Embezzlement, and Money Laundering
   On February 24, 2009, Michael T. Harrington, a GSA Supervisory Accountant,
   pled guilty to one felony count of theft of government funds/embezzlement
   and one felony count of money laundering. Harrington declined a formal plea
   agreement with the stipulation that the government dismiss two additional
   counts of money laundering.

   The GSA OIG’s Midwest Regional Investigations Office was contacted by the
   Internal Revenue Service (IRS) Criminal Investigations Division, which found
   that Harrington had deposited high dollar U.S. Treasury Checks made payable
   to “MWR Fund” into a private bank account. The OIG’s investigation was later
   joined by the IRS. A records search uncovered 13 payments from May 2006
   through May 2008 totaling $593,549.44 to the MWR Fund from GSA.

   The investigation revealed that in April 2006, Harrington had started a
   fictitious company called MWR Fund and acquired a post office box for it.
   Harrington then used his position as a GSA Supervisory Accountant to
   create, sign, and submit thirteen fraudulent refund vouchers to the Payable
   Division within GSA Finance, causing U.S. Treasury checks to be dispensed
   to his fictitious company. During interviews, Harrington admitted to taking the
   money in order to gamble and to pay off debts and loans incurred as a result
   of gambling. The Office of Forensic Auditing also performed a complementary
   review of whether similar schemes had resulted in additional losses.

   General Manager and Sales Representative Sentenced for Conspiracy
   to Defraud
   An investigation was initiated when it was reported that a former sales
   representative of Raytheon/JPS, of Marlboro, MD, and a former general
   manager of AK Specialty Vehicles (AKSV), of Sanford, FL, participated in a
   conspiracy scheme to defraud AKSV, Raytheon/JPS, and Advanced Vehicle
   Systems LLC, a subcontractor of AKSV.

   The investigation disclosed that the former sales representative and the
   former general manager participated in a conspiracy beginning in September
   2003 and continuing through July 2005 to commit wire fraud against Fisher
   Scientific International LLC (Fisher Scientific) and Advanced Vehicle Systems
   LLC, and agreed to make or receive approximately $415,000 in secret
   kickback payments on the sale of emergency vehicles from Raytheon/JPS to
   the government of the U.S. Virgin Islands. It was found that they submitted
   fraudulent invoices and used various bank accounts in Florida, Illinois, and
   Puerto Rico to conduct the kickback scheme. The kickbacks occurred under
   Raytheon/JPS’s GSA contract. AKSV was a Raytheon/JPS subcontractor.

   On October 1, 2008, the former sales representative and a former general
   manager were each found guilty by a Federal Jury of conspiracy to defraud.

                                                October 1, 2008 - March 31, 2009 19
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       On January 30, 2009, the former sales representative, was sentenced to 1
                                       year and 6 months of incarceration, 3 years of supervised release, and
                                       ordered to pay restitution in the amount of $249,421 (to be paid jointly with the
                                       former general manager). The former general manager was sentenced to 1
                                       year and 6 months of home confinement except for employment, 60 days of
                                       intermittent confinement on the weekends, 3 years of supervised release, 4
                                       years probation, and 400 hours of community service, and ordered to pay
                                       restitution in the amount of $249,421 (to be paid jointly with the former sales
                                       representative).

                                       The investigation also found that a former sales representative with Fisher
                                       Scientific conspired to receive kickback payments totaling approximately
                                       $25,000 in exchange for his assistance in facilitating the sale of emergency
                                       vehicles to the government of the U.S. Virgin Islands. He agreed to receive
                                       these kickback payments after it was determined that Fisher Scientific would
                                       not participate in the sale of the emergency vehicles to the government of the
                                       U.S. Virgin Islands. The kickbacks occurred under Raytheon/JPS’s GSA
                                       contract. On February 4, 2009, he was sentenced for conspiracy to commit
                                       wire fraud to 1 year of supervised release and 50 hours of community service,
                                       and ordered to pay restitution in the amount of $11,051.

                                       Army Employee Pleads Guilty to Making False Statements
                                       An investigation was initiated when the U.S. Army Criminal Investigation
                                       Command reported that the Chief, Quality Assurance, Contracting Officer’s
                                       Technical Representative (COTR), US Army, Rosslyn, Virginia, was
                                       conspiring with others to make false official statements authorizing payments
                                       to contractors for uncompleted work. As the COTR, he was responsible for
                                       overseeing the performance and completion of Information Technology
                                       service contracts provided to the Army through GSA. He directed prime
                                       contractors to subcontract their work with two companies in which he held a
                                       financial interest. In September 29, 2006, he pled guilty to wire fraud and was
                                       sentenced to 2 years of incarceration and 3 years supervised probation, and
                                       ordered to pay restitution in the amount of $150,049.

                                       One of the two companies used by the COTR as a sub-contractor was
                                       Network Systems Research and Analysis (NSRA), which was owned by a
                                       former employee of the Defense Logistics Agency (DLA). The former DLA
                                       employee never disclosed NSRA on her financial disclosure statement and it
                                       was found that she formed NSRA so that both she and the COTR would
                                       financially benefit when he approved payment on NSRA invoices for contracts
                                       on which he served as COTR.

                                       After pleading guilty to making false statements, on November 14, 2008, the
                                       former DLA employee was sentenced to 2 years of probation and ordered to
                                       pay a fine in the amount of $10,000.



20 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   GSA Contractor Pleads Guilty to Conspiracy to Launder Money
   A joint investigation with the IRS, FBI, and Department of Labor was initiated
   on oil transport companies in the Long Island and Brooklyn area when it was
   suspected that fuel oil was being stolen and customers were being charged
   for fuel not received. Six oil transport company executives were arrested for
   diverting more than $75 million in heating oil from customers for over 15
   years. Several of the oil companies were GSA contractors who delivered oil to
   various federal facilities and were involved in this fraudulent scheme.

   The owners of T&S Trucking Company were indicted by a Federal Grand Jury
   for embezzlement of interstate and foreign shipments of heating oil and
   conspiracy to launder money. The owners were charged with stealing tens of
   millions of gallons of heating oil from customers in the New York City
   metropolitan area, reselling the stolen oil, and laundering the proceeds from
   the sales. On December 5, 2008, an office manager of T&S pled guilty to
   conspiracy to launder money.

   Owner of a Mobile Vehicle Car Wash Sentenced for Theft of
   Government Property
   An investigation was initiated when a GSA transportation operations officer
   alleged that Executive Mobile Detailing (EMD) was not performing the
   services (car washes or oil changes) that were being billed to the Government
   using Voyager fleet cards. Interviews of the vehicle operators and
   coordinators regarding the billings from EMD revealed the charges were not
   valid and they had not seen anyone from EMD in months.

   The investigation disclosed that the owner of EMD fraudulently billed the
   Government using Voyager fleet card numbers he had obtained when he
   previously had performed services on the government vehicles. On
   September 10, 2008, the owner of EMD pled guilty to theft of government
   property and was sentenced to 3 years of probation and ordered to pay
   restitution in the amount of $16,448.

   Works Progress Administration Artworks Recovered
   GSA is the custodian of the Works Progress Administration (WPA) works of
   art. The WPA fine arts specialists have coordinated with the Department of
   Justice and the FBI to develop a list of lost and stolen WPA artwork. Fine arts
   dealers are required to check this database prior to the sale of any work of
   art. The OIG continues its proactive investigation by monitoring art sales to
   identify government-owned art. During this reporting period, 2 items were
   recovered.

   In the first instance, through a search of eBay auctions for art commissioned
   by the WPA, investigators recognized an auction for a Leonard Jungwirth
   sculpture. The Fine Arts Program (FAP) Office, Office of the Chief Architect,


                                                October 1, 2008 - March 31, 2009 21
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       GSA/Public Buildings Service believed the sculpture to be an authentic WPA-
                                       produced sculpture. The seller was apprised of the WPA recovery efforts,
                                       agreed to terminate the auction. The value of the sculpture is estimated at
                                       $5,000. After final cataloging and appraisal, the sculpture was loaned by the
                                       FAP to Michigan State University (MSU) for permanent display. Jungwirth was
                                       a prominent artist of the WPA era who created MSU’s mascot, Sparty the
                                       Spartan.

                                       In a second instance, a search of eBay’s website disclosed a painting being
                                       offered for sale by JOETHEPICKER, NYC, NY, as being a WPA painting. The
                                       eBay listing titled the painting “WILLIAM HAZELTON LISTED WPA PAINTING
                                       ROCKPORT WPA LABEL.” Investigators located documentation relating to
                                       the artist and painting through record searches at the National Archives. After
                                       reviewing the documentation, the FAP Office determined that the painting was
                                       a legitimate WPA painting and on March 6, 2009, the seller of the painting
                                       reluctantly surrendered the WPA painting, titled “Flowers” by William Hazelton,
                                       to the GSA OIG.

                                       GSA Voyager Fleet Charge Card Abuse
                                       The GSA OIG has an ongoing proactive investigative project to identify and
                                       investigate fraud associated with the misuse of GSA-issued Voyager Fleet
                                       charge cards. During this period, 20 individuals pled guilty, 24 individuals
                                       were indicted, and 18 individuals were arrested in connection with cases
                                       arising out of fleet charge card investigations. These cases involved
                                       thousands of dollars of fraudulent activities associated with this program.

                                       Suspension and Debarment Initiative
                                       GSA has a responsibility to ascertain whether the people or companies it
                                       does business with are eligible to participate in federally-assisted programs
                                       and procurements, and that they are not considered “excluded parties.”
                                       Excluded parties are individuals and companies debarred, suspended,
                                       proposed for debarment, or declared ineligible to receive contracts by a
                                       Federal agency. The Federal Acquisition Regulation authorizes an agency to
                                       suspend or debar individuals or companies for the commission of any offense
                                       indicating a lack of business integrity or business honesty that directly affects
                                       the present responsibility of a government contractor or subcontractor. The
                                       OIG has made it a priority to process and forward referrals to GSA, so GSA
                                       can timely ensure that the government does not award contracts to
                                       individuals or companies that lack business integrity or honesty.

                                       During this reporting period, the OIG made 153 referrals for consideration of
                                       suspension/debarment to the GSA Office of Acquisition Policy. GSA issued 90
                                       suspension and debarment actions based on current and previous OIG
                                       referrals.



22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Integrity Awareness
   The OIG presents Integrity Awareness Briefings nationwide to educate GSA
   employees on their responsibilities for the prevention of fraud and abuse and
   to reinforce employees’ roles in helping to ensure the integrity of Agency
   operations. This period, we presented 60 briefings attended by 761 regional
   and Central Office employees. These briefings explain the statutory mission of
   the OIG and the methods available for reporting suspected instances of
   wrongdoing. In addition, through case studies, the briefings make GSA
   employees aware of actual instances of fraud in GSA and other Federal
   agencies and thus help to prevent their recurrence. GSA employees are the
   first line of defense against fraud, abuse, and mismanagement. They are a
   valuable source of successful investigative information.

   Hotline
   The OIG Hotline provides an avenue for employees and other concerned
   citizens to report suspected wrongdoing. Hotline posters located in GSA-
   controlled buildings encourage employees to use the Hotline. We also use
   our FraudNet Hotline platform to allow Internet reporting of suspected
   wrongdoing. During this reporting period, we received 1,305 Hotline contacts.
   Of these contacts, 230 Hotline cases were initiated. In 106 of these cases,
   referrals were made to GSA program officials for review and action as
   appropriate, 43 were referred to other Federal agencies for follow up, 55 were
   referred for OIG criminal/civil investigations or audits, and 26 did not warrant
   further review.




                                                October 1, 2008 - March 31, 2009 23
                               Governmentwide Policy Activities



                                       We regularly provide advice and assistance on governmentwide policy
                                       matters to the Agency, as well as to other Federal agencies and to
                                       committees of Congress. In addition, as required by the Inspector General
                                       Act of 1978, we review existing and proposed legislation and regulations to
                                       determine their effect on the economy and efficiency of the Agency’s
                                       programs and operations and on the prevention and detection of fraud and
                                       mismanagement. Because of the central management role of the Agency in
                                       shaping governmentwide policies and programs, most of the legislation and
                                       regulations reviewed invariably affect governmentwide issues in areas such
                                       as procurement, property management, travel, and government management
                                       and information technology systems.

                                       Internal Evaluations
                                       • Operational Assessments. The OIG Office of Internal Evaluation and
                                          Analysis (JE) conducts Operational Assessments of OIG field offices and
                                          other OIG components. These assessments are intended to monitor
                                          compliance and uniformity among the various OIG regional audit and
                                          investigative offices. The assessments are conducted on a scheduled
                                          basis, open to modification.

                                         JE uses an electronic Self-Assessment Questionnaire that requires
                                         responses from field office managers and line personnel. The
                                         Questionnaire gathers data on wide variety of operational mandates,
                                         including: significant audits and closed cases; audit and investigative
                                         procedures; audit and case file documentation; auditor and special agent
                                         training and professional development; personnel issues; liaison
                                         relationships; and, for OIG investigative operations,equipment, firearms,
                                         and maintenance of evidence.

                                         JE follows-up the responses to the Questionnaire with an on-site visit to the
                                         regional audit and investigative field offices. During the on-site visit, the JE
                                         operational assessment team conducts in-person interviews with all OIG
                                         regional personnel, plus GSA regional personnel if available. JE also
                                         attempts to interview any other regional personnel from other agencies,
                                         such as U.S. Attorney Office personnel, who have regular contact with the
                                         OIG regional offices.

                                         In addition, JE reviews each office’s time and attendance record-keeping,
                                         and other related administrative tasks. It also makes an in-person
                                         inspection of the Evidence Room and the firearms locker that are
                                         maintained by, and under the control of, each OIG investigative field office.

                                       • Office of Forensic Auditing. The OIG Office of Forensic Auditing (JEFA)
                                          has been established and is housed within JE. It is an independent, multi-
                                          disciplinary team devoted to the identification, assessment, and
                                          prosecution of crimes against GSA. JEFA concentrates on procurement
                                          and contract fraud.


24 Semiannual Report to the Congress
Governmentwide Policy Activities



   Internal Evaluations (continued)

     JEFA utilizes innovative strategies that enhance the traditional OIG audit
     and investigative practices and procedures to detect fraudulent activities,
     assess situations when a fraud has taken place, and produce evidence
     meeting the standards required by criminal courts.

     During the period from October 1, 2008 to March 31, 2009, JEFA
     concentrated its efforts on securing adequate staffing and resources to
     support a unit composed of auditors, management and program analysts,
     and investigators. The unit initiated several investigations of major potential
     fraudulent activities involving construction and other key procurement
     areas. It also performed a complementary analysis of the extent of
     employee embezzlement losses in GSA finance centers, in conjunction
     with an investigation of embezzlement by a GSA supervisor. It is expected
     that JEFA will refer potential matters to the Department of Justice for its
     determination whether any warrant prosecution or other action.

   • Statistical Support for OIG Audits and Investigations. During the first
      half of FY 2009, JE continued to provide assistance in scientific sampling
      and database analysis to the OIG auditors and investigators. JE has
      applied statistical methods to such varied areas of concern as purchase
      card usage, fleet vehicle use and charge card use, leased office space for
      Federal employees, procurement fraud, suspension and debarment
      databases, and wage rates on construction projects.

     Working with the Office of Audits, JE prepared a study of Davis-Bacon Act
     issues, based upon a large-scale sampling of payroll records and
     forwarded the study to the Congress at a Member’s request.

     In addition, JE has undertaken statistical review of contracting tools, such
     as the wage pricing tool and database. JE also provided assistance to the
     audit staff in the design of a questionnaire for a sample of vendors
     participating in the MAS program. Finally, JE prepared an article examining
     fleet usage and submitted it to the Journal of Public Inquiry.

   Interagency Committees and Working Groups
   We participated in a number of interagency committees and working groups
   that address cross-cutting and governmentwide issues:

   • Council of the Inspectors General on Integrity and Efficiency (CIGIE).
     The IG is a member of several CIGIE committees including the Homeland
     Security Roundtable, the Human Resources Committee, and the
     Investigations Committee. The Homeland Security focus of the Roundtable
     was a springboard for a review of the Federal Government’s practices
     during the Gulf Coast Hurricane Recovery.




                                                 October 1, 2008 - March 31, 2009 25
                               Governmentwide Policy Activities



                                       Interagency Committees and Working Groups (continued)

                                         The mission of the Human Resources Committee is to provide educational
                                         opportunities for members of the CIGIE communities and to assist in
                                         ensuring the development of competent personnel. The purpose of the
                                         Investigations Committee is to advise the Inspector General community on
                                         issues involving investigative functions, establish investigative guidelines,
                                         and promote best practices.

                                         o CIGIE Federal Audit Executive Council (FAEC) Information
                                           Technology (IT) Committee. The Committee is responsible for leading
                                           discussion and reaching consensus among all of the OIGs regarding a
                                           myriad of IT issues. Our Information Technology Audit Office provides
                                           both administrative and technical support for the CIGIE and the FAEC,
                                           through the IT Committee for FAEC. The IT Committee consists of over
                                           55 members who represent approximately 15 Agencies from across the
                                           Federal IG community. The IT Audit Office’s leadership role includes
                                           planning, hosting, and documenting bimonthly IT Committee meetings
                                           as well as spearheading government-wide projects and fast-paced
                                           surveys and data analyses on IT audit issues and related matters of
                                           interest for the FAEC. Recent IT Committee projects include gathering
                                           and consolidating value-added feedback for the U.S. Government
                                           Accountability Office throughout its process for revising the Federal
                                           Information Systems Control Audit Manual. Also, within the IT
                                           Committee, our IT Audit Office played a pivotal role in correspondence
                                           and coordination with the Office of Management and Budget to initiate
                                           improvements in the annual reporting guidance provided to the Federal
                                           IG community under the Federal Information Security Management Act
                                           of 2002.
                                         o FAEC Contracting Committee. The Principal Deputy Assistnace IG for
                                           Auditing and the Deputy Assistant Inspector General, Acquisition
                                           Programs Audit Office, participate in the FAEC Contracting Committee,
                                           created in December 2007. This Committee provides a forum to share
                                           information and coordinate reviews of significant contract and
                                           procurement community issues of interest across the IG community and
                                           Federal Government. The Committee also proposes the development
                                           and recommendation of best practices to be used by IGs to address
                                           contracting issues.

                                       • Federal Systems Security Governance Board (FSSGB). The Deputy
                                         Assistant Inspector General for Information Technology Audits participates,
                                         as a nonvoting member, in monthly meetings of the FSSGB, the oversight
                                         body of the Information Systems Security Line of Business initiative, which
                                         seeks to provide for common IT security solutions government-wide.
                                         Specific FSSGB activities related to IT auditing and other interests of the
                                         OIG community include coordination with the new Security and Identity
                                         Management Committee, under the Federal Chief Information Council, as
                                         the principal interagency forum for identifying and recommending strategic


26 Semiannual Report to the Congress
Governmentwide Policy Activities



   Interagency Committees and Working Groups (continued)

     high priority IT security and identity-management initiatives to the Federal
     Chief Information Officer Council and the Office of Management and
     Budget. Also of importance are FSSGB efforts to establish Federal Shared
     Service Centers to provide government-wide Certification and
     Accreditation services to address system security controls and risk
     management requirements for Federal IT systems.

   • TeamMate Technical Support Group. Our TeamMate Technical Support
     Group participates in the TeamMate Federal Users Group and the CCH
     TeamMate Users Group to discuss concerns and new challenges facing
     TeamMate users. TeamMate is an automated audit paperwork
     management system that strengthens the audit process and increases
     efficiency.

   Legislation, Regulations, and Subpoenas
   During this reporting period the OIG reviewed numerous legislative matters
   and proposed regulations. The OIG also issued 15 subpoenas.




                                               October 1, 2008 - March 31, 2009 27
                               Professional Assistance Services



                                       Government Auditing Standards prohibit Federal audit organizations from
                                       performing certain types of management consulting projects because they
                                       may impair the independence of the auditors when performing subsequent
                                       audit work in the same area. To maintain our independence when working
                                       closely with GSA management, we carefully assess our services to ensure
                                       compliance with the standards. As allowed under the standards, we
                                       participate in Agency improvement task forces, committees, and working
                                       groups in an observer or advisory capacity.

                                       Task Forces, Committees, and Working Groups. The OIG provides advice
                                       and counsel to GSA while monitoring ongoing Agency initiatives. Our
                                       representatives advise management at the earliest possible opportunity of
                                       potential problems, help ensure that appropriate management controls are
                                       provided when installing new or modifying existing Agency systems, and offer
                                       possible solutions when addressing complex financial and operational issues.

                                       Our direct participation with the Agency on task forces, committees, and
                                       working groups allows us to contribute our expertise and advice, while
                                       improving our own familiarity with the Agency’s rapidly changing systems. We
                                       nevertheless maintain our ability to independently audit and review programs.
                                       Our participation on task forces is typically as nonvoting advisory members.

                                       Some areas in which we have been involved this period include:

                                       • The Multiple Award Schedule (MAS) Working Group. The Working
                                         Group was established as a result of an OIG report released in August
                                         2001 relating to MAS contracting pricing practices. The Working Group is
                                         currently comprised of senior level management of the Federal Acquisition
                                         Service (FAS) and the OIG. The Working Group has had several areas of
                                         focus, including preaward contract reviews and MAS negotiations issues. It
                                         developed guidance to MAS contracting officers (COs) regarding the
                                         performance and use of preaward MAS contract reviews. Further, the
                                         Working Group reinvigorated the process by which FAS and the OIG
                                         collaboratively select and commence preaward reviews of vendors, and
                                         has built into this process a specific mechanism for COs to request reviews
                                         of particular vendors. Recently, the MAS Working Group was restructured
                                         to limit participation in order to better communicate broad policy issues at a
                                         higher level. Based on these discussions, subgroups were established to
                                         discuss discrete issues having to do with particular contracts or reviews.
                                         For example, an MAS subgroup was tasked to examine the time frames
                                         necessary to ensure audit results are available in sufficient time to
                                         minimize the use of temporary contract extensions. Another subgroup
                                         provides an avenue to resolve issues relating to audit reviews of MAS
                                         contacts. This subgroup also identifies FAS policy issues for referral to the
                                         Working Group.

                                       • GSA IT Governance Groups. Through collaboration with the GSA Chief
                                         Information Officer, our Information Technology Audit Office monitors the


28 Semiannual Report to the Congress
Professional Assistance Services



     Agency’s efforts to establish a streamlined, enterprise-level IT governance
     structure and process in which the responsibilties of key Services and Staff
     Offices, and individual positions, are clear. This includes the newly formed
     IT Executive Council (ITEC) that reviews and makes decisions and
     recommendations on agency-wide technical issues, strategic IT planning,
     IT portfolio management, and enterprise architecture guidance, and
     oversees five standing committees: (1) Enterprise Applications Committee,
     (2) Enterprise Architecture Committee, (3) Enterprise Infrastructure
     Committee, (4) Information Assurance Committee, and (5) Portfolio
     Management Committee.

   • Single Audit Act Activities. The Single Audit Act established uniform
     audit requirements for state and local governments receiving Federal
     awards. The non-Federal entities that receive Federal awards under more
     than one Federal program are required to undergo a single audit to prevent
     duplicate audits and inefficiencies. Each Federal agency monitors the non-
     Federal entity’s use of awards provided by the Agency, and assesses the
     quality of the audits conducted relative to its program. The OIG monitors
     these activities primarily as they relate to the personal property disposal
     program.




                                               October 1, 2008 - March 31, 2009 29
                         Statistical Summary of OIG Accomplishments


                                            Audit Reports Issued
                                            The OIG issued 56 audit reports during this reporting period. The 56 reports
                                            contained financial recommendations totaling $316,935,094, including
                                            $299,877,880 in recommendations that funds be put to better use and
                                            $17,057,214 in questioned costs. Due to GSA’s mission of negotiating
                                            contracts for government-wide supplies and services, most of the savings
                                            from recommendations that funds be put to better use would be applicable to
                                            other Federal agencies.

                                            Management Decisions on Audit Reports
                                            Table 1 summarizes the status of the universe of audits requiring management
                                            decisions during this period, as well as the status of those audits as of March 31,
                                            2009. There were 4 reports more than six months old awaiting management
                                            decision as of March 31, 2009. Table 1 does not include 2 reports issued to
                                            another agency this period. Table 1 also does not include 4 reports excluded
                                            from the management decision process because they pertain to ongoing
                                            investigations. Further, this table does not include $83.5 million in cost avoidance
                                            resulting form a settlement agreement with AMEC.



                            Table 1. Management Decisions on OIG Audits

                                                                                    Reports with                        Total
                                                             Number of                Financial                       Financial
                                                              Reports             Recommendations                 Recommendations
   For which no management decision
   had been made as of 10/01/2008
    Less than six months old                                       28                       11                     $121,596,181
    Six or more months old                                         11                        8                     $358,937,571
   Reports issued this period                                      54                       39*                    $316,935,094
   TOTAL                                                           93                       58                     $797,468,846

   For which a management decision
   was made during the reporting period
    Issued prior periods                                           35                       16                     $465,245,908
    Issued current period                                          33                       24                     $141,824,176
   TOTAL                                                           68                       40                     $607,070,084

   For which no management
   decision had been made
   as of 03/31/2009
    Less than six months old                                       21                       15*                    $175,110,918
    Six or more months old                                          4                        3                     $ 15,287,844
   TOTAL                                                           25                       18                     $190,398,762
   * These totals include one audit report issued with both questioned costs and funds to be put to better use.




30 Semiannual Report to the Congress
             Statistical Summary of OIG Accomplishments



                              Management Decisions on Audit Reports with
                              Financial Recommendations
                              Tables 2 and 3 present the audits identified in Table 1 as containing financial
                              recommendations by category (funds to be put to better use or questioned
                              costs).




             Table 2. Management Decisions on OIG Audits
           Recommendations that Funds be Put to Better Use

                                                        Number of                      Financial
                                                         Reports                   Recommendations
For which no management
decision had been made
as of 10/01/2008
 Less than six months old                                     9                      $118,854,492
 Six or more months old                                       8                      $358,937,571
 Reports issued this period                                  32                      $299,877,880
TOTAL                                                        49                      $777,669,943

For which a management
decision was made during
the reporting period
  Recommendations agreed to by management                    34                      $603,675,145
  Recommendations not agreed to by management                 0                      $          0
TOTAL                                                        34                      $603,675,145

For which no management
decision had been made
as of 03/31/2009
Less than six months old                                     12                      $158,706,954
Six or more months old                                        3                      $ 15,287,844
TOTAL                                                        15                      $173,994,798




                                                                            October 1, 2008 - March 31, 2009 31
                      Statistical Summary of OIG Accomplishments




      Table 3. Management Decisions on OIG Audits With Questioned Costs

                                               Number of       Questioned
                                                Reports          Costs
       For which no management
       decision had been made
       as of 10/01/2008
        Less than six months old                   2           $ 2,741,689
        Six or more months old                     0           $         0
       Reports issued this period                  8           $17,057,214
       TOTAL                                      10           $19,798,903

       For which a management
       decision was made during
       the reporting period
         Disallowed costs                          6               $3,394,939
         Costs not disallowed                      0               $        0
       TOTAL                                       6               $3,394,939

       For which no management
       decision had been made
       as of 03/31/2009
        Less than six months old                   4           $16,403,964
        Six or more months old                     0           $         0
       TOTAL                                       4           $16,403,964




32 Semiannual Report to the Congress
           Statistical Summary of OIG Accomplishments



                      Investigative Workload
                      The OIG opened 100 investigative cases and closed 99 cases during this
                      period. In addition, the OIG received and evaluated 36 complaints and
                      allegations from sources other than the Hotline that involved GSA employees
                      and programs. Based upon our analyses of these complaints and allegations,
                      OIG investigations were not warranted.

                      Referrals
                      The OIG makes criminal referrals to the Department of Justice or other
                      authorities for prosecutive consideration, and civil referrals to the Civil Division
                      of the Department of Justice or to U.S. Attorneys for litigative consideration.
                      The OIG also makes administrative referrals to GSA officials on certain cases
                      disclosing wrongdoing on the part of GSA employees, contractors, or private
                      individuals doing business with the government.

                      During this period, the OIG also made 46 referrals to GSA officials for
                      information purposes only.


                   Table 4. Summary of OIG Referrals

Type of Referral                        Cases                                  Subjects

Criminal                                  55                                       99
Civil                                     23                                       30
Administrative                            63                                       96

TOTAL                                    141                                      225



                      Actions on OIG Referrals
                      Based on these and prior referrals, 46 cases (68 subjects) were accepted for
                      criminal prosecution and 14 cases (24 subjects) were accepted for civil
                      litigation. Criminal cases originating from OIG referrals resulted in 61
                      indictments/informations and 55 successful prosecutions. OIG civil referrals
                      resulted in 5 case settlements. Based on OIG administrative referrals,
                      management debarred 27 contractors/individuals, suspended 63
                      contractors/individuals, and took 19 personnel actions against employees.




                                                                     October 1, 2008 - March 31, 2009 33
                        Statistical Summary of OIG Accomplishments



                                       Monetary Results
                                       Table 5 presents the amounts of fines, penalties, settlements, forfeitures,
                                       judgments, and restitutions payable to the U.S. Government as a result of
                                       criminal and civil actions arising from OIG referrals.



                             Table 5. Criminal and Civil Recoveries

                                                             Criminal                    Civil

          Fines and Penalties                           $     337,187

          Settlements                                                               $52,774,641

          Forfeitures                                          95,000

          Seizures                                                824

          Restitutions                                        976,550

          TOTAL                                             $1,409,561              $52,774,641



                                       Table 6 presents the amount of administrative recoveries and forfeitures as a
                                       result of investigative activities.



                                  Table 6. Other Monetary Results

          Administrative Recoveries                          $259,496

          Forfeitures                                              82

          TOTAL                                              $259,578




34 Semiannual Report to the Congress
APPENDICES
                      Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,            improvements in two main areas: development and
the GSA Office of the Chief Financial Officer, Office of the   maintenance of an integrated accounting and financial
Controller, is responsible for tracking the implementation     management system, and system operations and
of audit recommendations after a management decision           response to management and user needs. The report
has been reached. That office furnished the following          contained four recommendations; three have not been
status information.                                            implemented.

Thirteen audits highlighted in prior reports to the            The remaining recommendations involve coordinating
Congress have not yet been fully implemented; all are          with GSA Services, Staff Offices, and Regions to
being implemented in accordance with currently                 develop a detailed plan for migration and integration of
established milestones.                                        remaining legacy systemt functionality and other
                                                               systems with Pegasys; ensuring that system
                                                               implementation review processes comprehensively
Improving the FedRooms Program                                 consider how Pegasys is meeting Agency and customer
Based On Benchmarking                                          needs; and improving security and privacy controls for
Period First Reported: April 1, 2008 to September 30, 2008     sensitive Pegasys data. They are scheduled for
                                                               completion between May 15, 2009 and July 15, 2009.
The FAS requested a benchmarking study as a follow-
up to our review of FedRooms (Report Number                    FY 2008 Office of Inspector General
A070167/Q/9/P08002, issued on February 4, 2008).
The February 2008 review determined that usage of              FISMA Review of GSA’s Information
FedRooms was low and recommended that the                      Technology Security Program
Commissioner of FAS develop a business plan for                Period First Reported: April 1, 2008 to September 30, 2008
FedRooms. The objective for the follow-up review was
to determine how FAS can improve FedRooms to gain              The objectives of this audit were to assess the
wider participation by hotels and travelers, based on          effectiveness of controls over GSA systems and data and
best practices used by large corporations and states.          to address specific questions and reporting requirements
The report contained five recommendations; three have          identified by OMB. We reviewed four systems, including
not been implemented.                                          one contractor system, to assess implementation of
                                                               GSA’s IT Security Program. The report contained five
The remaining recommendations include improving the            recommendations; none have been implemented.
usage of the program and thus increasing the
Government’s leverage by implementing policy                   The recommendations involve working with the Office of
language that will strongly influence Government               the Chief Acquisition Officer to develop standard
travelers to use the lodging program; determining the          requirements and deliverables for IT service contracts
most effective method of marketing FedRooms; and               and task orders that promote compliance with GSA IT
enhancing the FedRooms.com on-line booking tool and            Security Policy and procedures; working with the Office
travel authorization process. They are scheduled for           of the Chief Acquisition Officer and the Office of the Chief
completion between June 15, 2009 and October 15,               Human Capital Officer (OCHCO) to ensure consistent
2009.                                                          background investigation requirements in policies,
                                                               procedures, and task orders; expediting actions to
Work Remains in Implementing                                   implement encryption of mobile devices and two-factor
                                                               authentication, and working with the OCHCO to promptly
a Fully Integrated Pegasys                                     fulfill responsibilities for implementing a comprehensive
Financial Management System                                    breach notification policy; enhancing monitoring of GSA's
Period First Reported: April 1, 2008 to September 30, 2008     public web presence and ensuring that all of GSA's
                                                               publicly facing web applications (a) encrypt login
The objective of this audit was to gather information on       credentials, (b) support Federal Information Processing
the status of Pegasys and evaluate risks and potential         Standards (FIPS) Publication 140-2 encryption, and (c)


                                                                                       October 1, 2008 – March 31, 2009 37
                      Appendix I–Significant Audits from Prior Reports



use approved Government domains for GSA web                   The recommendations are scheduled for completion
applications; and ensuring that the IT Security Policy        between July 15, 2009 and October 15, 2009.
thoroughly addresses requirements for securing minor
applications. They are scheduled for completion between
May 15, 2009 and November 15, 2009.                           Improvements to the GSA Privacy Act
                                                              Program Are Needed to Ensure That
Audit of Reimbursable Work                                    PII is Adequately Protected
                                                              First Reported: October 1, 2007 to March 31, 2008
Authorizations
Period First Reported: April 1, 2008 to September 30, 2008    We found that GSA has taken steps toward improving the
                                                              protection of Personally Identifiable Information (PII);
The primary objectives of our review were to determine        however, improvements to the GSA Privacy Act Program
if RWAs are properly accounted for and whether controls       are needed. The report contained four recommendations;
over RWAs are adequate and effective. The report              two have not been implemented.
contained two recommendations; neither has been
implemented.                                                  The recommendations include ensuring that the Privacy
                                                              Act Program is integrated with the agency’s security
We recommended that management ensure that the
                                                              program, and working with the Office of the Chief
controls recommended by the National Team are
                                                              Acquisition Officer to review contracts in support of
effectively implemented and adhered to and that the
                                                              major IT systems that collect and store PII to ensure that
results achieved are monitored; and, that the residual
                                                              the appropriate privacy clauses have been included and
risks associated with the RWA process identified in this
                                                              that contractors supporting privacy act systems of
report are incorporated into the National Team’s
                                                              records are aware of and fulfill their roles and
reengineered process, and addressed by management
                                                              responsibilities for protecting GSA’s PII. They are
where clarifications are needed and/or disseminated to
GSA       associates   as    part  of    their  overall       scheduled for completion between May 15, 2009 and
training/implementation process. They are scheduled for       November 15, 2009.
completion between April 15, 2009 and October 15, 2009.
                                                              Use of Inventory Management
Audit of PBS’s Controls Over Security                         Software
of Building Information                                       Period First Reported: October 1, 2007 to March 31, 2008
Period First Reported: April 1, 2008 to September 30, 2008
                                                              Our review objectives were to determine whether: (1)
The focus of our review was to determine whether PBS          FAS was using the Manugistics inventory management
has adequate controls in place to protect sensitive           software to the fullest extent possible, and if not, what
building information. The report contained five               were the reasons for inconsistent usage; and (2) the
recommendations; three have not been implemented.             Manugistics software could be improved to better
                                                              manage inventory in the depots and stores. The report
The recommendations include incorporating GSA order           contained seven recommendations; four have not been
PBS 3490.1 requirements directly into the boilerplate         implemented.
Solicitation for Offers and contracts for architect and
engineering, construction, and lease construction             The remaining recommendations involve the FAS
contracts; ensuring that officials are provided training on   Commissioner       removing     redundant      inventory
PBS 3490.1, to include encryption software applications       management functionality from the legacy systems;
available to PBS project personnel; and implementing a        maintaining up-to-date procurement and inventory costs in
system of controls to ensure that PBS 3490.1                  the Manugistics software; and conducting two cost/benefit
requirements are being followed by PBS project teams.         studies—one related to implementing improvements to
                                                              transportation management information, and one related


38 Semiannual Report to the Congress
                      Appendix I–Significant Audits from Prior Reports



to adding data warehousing to maintain historical data       with the Office of General Counsel that will lead to
regarding actions taken by inventory managers and store      finalizing settlements of unused airline tickets estimated
coordinators and routinely reporting this information to     at $48 million with the three bankrupt airlines. They are
their supervisors. They are scheduled for completion         scheduled for completion by May 15, 2009.
between June 15, 2009 and December 15, 2009.
                                                             Security of GSA’s Electronic
MAS Contract Workload Management                             Messaging Services
Period First Reported: April 1, 2007 to September 30, 2007   Period First Reported: April 1, 2007 to September 30, 2007

The focus of the review was to determine if FAS was          Our review assessed whether GSA has adequate
effectively managing the workload associated with            security controls to manage risks with GEMS and
processing contract actions in the Schedules program.        GNNI applications. The report contained seven
The report contained ten recommendations; four have          recommendations; one has not been implemented.
not been implemented.
                                                             The remaining recommendation involves the GSA-CIO
The remaining recommendations involve adopting a             working closely with Services/Staff Offices/Regions to
more structured approach to reduce the number of             inventory all GSA's Lotus Notes databases and
existing underutilized schedule contracts; establishing      applications and remove those that are outdated, lack
specific nationwide guidance related to Price Analysis       necessary controls, or do not adhere to guidelines. It is
Documentation Requirements and Negotiation Policies          scheduled for completion by May 15, 2009.
and Techniques for schedule contracts; establishing
performance measures that evaluate Contracting
Officer/Contracting Specialist (a) verification of vendor    Heating Operation and Transmission
disclosures related to Commercial Sales Practice, (b)        District's Operations and Finances
effectiveness in analyzing prices and conducting             Period First Reported: April 1, 2007 to September 30, 2007
negotiations, and (c) consideration of the field pricing
assistance; and developing standardized procedures for       The focus of our review was to determine if GSA’s
the initial screening of offers. They are scheduled for      Heating Operation and Transmission District (HOTD), a
completion between May 15, 2009 and January 15,              steam and chilled water utility service to government
2010.                                                        and quasi-government customers in the National Capital
                                                             Region, operates and uses its assets economically,
FAS’s Administration of Unused                               efficiently, and securely. The report contained thirteen
                                                             recommendations; five have not been implemented.
Airline Tickets
Period First Reported: April 1, 2007 to September 30, 2007   The remaining recommendations involve replacing the
                                                             deficient Induced Draft Fan to permit as-designed system
We found that the process for refund collections for         functionality and performance testing, determining the
unused airline tickets needed significant improvements.      best use of the West Plant Asset, developing a
The report contained six recommendations; two have           Contingency Plan for utility services, discontinuing the
not been implemented.                                        use of Reimbursable Work Authorizations (RWA) for
                                                             HOTD services in order to correct accounting data, and
The remaining recommendations involve the FAS                developing the capability to isolate HOTD financial
Commissioner directing the Assistant Commissioner,           activities by business line. They are scheduled for
travel, motor vehicle, and card services to pursue other     completion between May 15, 2009 and January 15,
alternatives such as DFAS deductions (maximum of             2010.
$7.7 million) and/or legal action to collect on the
outstanding claim of $8.34 million from the non-bankrupt
airline, and developing a feasible plan in conjunction



                                                                                     October 1, 2008 – March 31, 2009 39
                     Appendix I–Significant Audits from Prior Reports



GSA’s Electronic Contract Proposal                         Consolidation of Distribution Centers
and Modification System                                    Period First Reported: October 1, 2002 to March 31, 2003
Period First Reported: October 1, 2006 to March 31, 2007
                                                           The review examined the operations of the FSS Stock
The review’s objective was to determine whether            Program. The report contained two recommendations;
eOffer/eMod are realizing expected benefits and if         one has not been implemented.
sufficient security controls have been designed
and implemented. The report contained four                 The remaining recommendation, which requires
recommendations; one has not been implemented.             developing access to sufficient and reliable data for all
                                                           delivery methods, is scheduled for completion by July
The remaining recommendation involves analyzing            15, 2009.
usage rates and developing strategies to address the
causes of low usage. It is scheduled for completion by
July 15, 2009.




40 Semiannual Report to the Congress
                              Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to         Questioned
Date of       Audit                                                            Be Put to       (Unsupported)
Report        Number                           Title                           Better Use           Costs


(Note: Because some audits pertain to contract awards or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)

PBS Contract Audits
10/17/08       A080163        Review of Claim for Increased Costs:
                              Gilbane Building Company, Contract
                              Number GS-05P-01-GBC-0041

10/17/08       A080184        Review of Claim for Increased Costs:
                              Anning-Johnson Company, Subcontractor
                              to Gilbane Building Company, Contract
                              Number GS-05P-01-GBC-0041

11/10/08       A070204        Review of Construction Management
                              Services Contract: Bovis Lend Lease LMB,
                              Inc., Solicitation Number GS-02P-07-DTC-
                              0009(N)

12/16/08       A080185        Review of a Claim: Pacific Coast Steel,
                              Formerly Bay Area Reinforcing, Inc.,
                              Subcontractor to Dick Corporation/Morganti
                              Group, A Joint Venture, Contract Number
                              GS-09P-02-KTC-0002

12/18/08       A080193        Review of a Claim for Increased Costs:
                              Climatemp, Inc., Subcontractor to Gilbane
                              Building Company, Contract Number GS-
                              05P-01-GBC-0041

01/09/09       A080220        Review of a Claim: Boyett Door and
                              Hardware,    Subcontractor  to Dick
                              Corporation/Morganti Group, A Joint
                              Venture, Contract Number GS-09P-02-
                              KTC-0002

01/12/09       A090044        Preaward Review of Supplemental
                              Architect and Engineering Services
                              Contract: Richard D. Kimball Co., Inc.,
                              Solicitation Number GS-01P-08-BW-D-
                              0053

01/12/09       A090047        Preaward Review of Supplemental
                              Architect and Engineering Services
                              Contract: Pennoni Associates, Inc.,
                              Subcontractor to BBIX, LLC, Solicitation
                              Number GS-01P-08-BW-D-0054




                                                                               October 1, 2008 – March 31, 2009 41
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


01/23/09        A090043         Preaward Review of Supplemental
                                Architect and Engineering Services
                                Contract: BBIX, LLC, Solicitation Number
                                GS-01P-08-BW-D-0054

02/19/09        A080200         Preaward Review of a Claim: Wm. T.
                                Spaeder Company, Inc., Subcontractor to
                                Mascaro Construction Company, LP,
                                Contract Number GS-03P-02-CDC-0137
03/12/09        A090002         Review of Claim for Increased Costs: Gurtz
                                Electric Co., Subcontractor to Gilbane
                                Building Company, Contract Number GS-
                                05P-01-GBC-0041

03/23/09        A090142         Report on Accounting System Audit of
                                Hensel Phelps Construction Company

03/26/09        A090058         Review of Claim for Increased Costs:
                                Carlo/LeJeune,     Joint     Venture,
                                Subcontractor  to   Gilbane  Building
                                Company, Contract Number GS-05P-01-
                                GBC-0041


FAS Internal Audits
03/26/09        A080173         FY 2009 Office of Inspector General
                                Information Technology Security Audit of
                                USAccess, GSA’s Homeland Security
                                Presidential Directive 12 System


FAS Contract Audits
10/09/08        A080045         Preaward Review of Multiple Award
                                Schedule Contract Extension: Sybase, Inc.,
                                Contract Number GS-35F-5212H

10/17/08        A070138         Preaward Review of Multiple Award
                                Schedule        Contract      Extension:
                                BearingPoint, LLC, Contract Number GS-
                                23F-9796H

10/23/08        A080139         Preaward Review of Multiple Award
                                Schedule, Solicitation Number FCIS-JB-
                                980001-B: SAP Public Services, Inc.




42 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                             Financial
                                                                        Recommendations
                                                                   Funds to         Questioned
Date of    Audit                                                  Be Put to       (Unsupported)
Report     Number             Title                               Better Use           Costs


10/29/08   A080069   Preaward Review of Multiple Award
                     Schedule Contract Extension: Intirion
                     Corporation, Contract Number GS-21F-
                     0091H

10/29/08   A080151   Preaward Review of Multiple Award
                     Schedule Contract Extension: SeaArk
                     Marine Inc., Contract Number GS-07F-
                     0012J
10/29/08   A080122   Preaward Review of Multiple Award
                     Schedule Contract Extension: Eagle
                     Support Services Corporation, Contract
                     Number GS-10F-0464N

10/30/08   A080001   Review of Multiple Award Schedule                                   $4,601
                     Contract Number GS-35F-0545K for the
                     period March 31, 2004 to March 31, 2008:
                     SunGard Availability Services, LP

10/31/08   A080003   Preaward Review of Multiple Award
                     Schedule Contract Extension: Williams,
                     Adley & Company, LLP, Contract Number
                     GS-23F-8184H

11/20/08   A080156   Preaward Review of Multiple Award
                     Schedule Contract Extension: Rockwell
                     Collins, Inc., Contract Number GS-35F-
                     5926H

11/20/08   A080189   Preaward Review of Multiple Award
                     Schedule Contract Extension: Willard
                     Marine, Inc., Contract Number GS-07F-
                     0123H

11/24/08   A080183   Preaward Review of Multiple Award
                     Schedule Contract Extension: Identix Inc.,
                     Contract Number GS-07F-0112H

12/12/08   A080177   Preaward Review of Multiple Award
                     Schedule Contract Extension: Tecolote
                     Research, Inc., Contract Number GS-35F-
                     5115H

12/18/08   A090084   Report on Audit of Fiscal Year 2006
                     Incurred Cost Noblis, Inc.




                                                                  October 1, 2008 – March 31, 2009 43
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


12/29/08        A090042         Postaward Audit Report on Direct Costs                      $14,951,923
                                Incurred on Trilogy Project: Computer
                                Sciences Corporation (Formerly Dyncorp
                                Information Systems), Task Order Number
                                T0001AJM026 under GSA Millennia,
                                Contract Number GS-00T-99-ALD-0204

12/31/08        A080191         Preaward Review of Multiple Award
                                Schedule Contract Extension: Corporate
                                Lodging Consultants, Inc., Contract
                                Number GS-33F-0009P

01/07/09        A080147         Preaward Review of Multiple Award
                                Schedule Contract Extension: Paradigm
                                Solutions Corporation, Contract Number
                                GS-35F-5869H

01/07/09        A080170         Preaward Review of Multiple Award
                                Schedule Contract Extension: Brunswick
                                Commercial and Government Products,
                                Inc., Contract Number GS-07F-0011J

01/14/09        A080209         Preaward Review of Multiple Award                                $8,872
                                Schedule Contract Extension: Zodiac of
                                North America, Inc., Contract Number GS-
                                07F-0056J

01/14/09        A080224         Preaward Review of Multiple Award
                                Schedule Contract Extension: Advanced
                                Interactive Systems, Inc., Contract Number
                                GS-02F-0009J

01/20/09        A080136         Preaward Review of Multiple Award
                                Schedule Contract Extension: Dynamic
                                Decisions, Inc., Contract Number GS-35F-
                                5879H

01/21/09        A080175         Preaward Review of Multiple Award
                                Schedule Contract Extension: NCI
                                Information Systems, Inc., Contract
                                Number GS-35F-4014G

01/23/09        A080196         Preaward Review of Multiple Award
                                Schedule Contract Extension: Marzik, Inc.,
                                Contract Number GS-35F-5857H

01/23/09        A080183         Limited Scope Review of Multiple Award
                                Schedule Contract: Identix, Inc., Contract
                                Number GS-07F-0112H


44 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                     Funds to         Questioned
Date of    Audit                                                    Be Put to       (Unsupported)
Report     Number             Title                                 Better Use           Costs


01/28/09   A090005   Preaward Review of Multiple Award
                     Schedule Contract Extension: Intratek
                     Computer, Inc., Contract Number GS-35F-
                     0178J

02/04/09   A080067   Preaward Review of Multiple Award
                     Schedule Contract Extension: Haworth,
                     Inc., Contract Number GS-28F-8014H
02/05/09   A080169   Preaward Review of Multiple Award
                     Schedule Contract Extension: Tremco Inc.,
                     Contract Number GS-07F-8798D

02/05/09   A080208   Preaward Review of Multiple Award
                     Schedule Contract Extension: System
                     Studies & Simulation, Inc., Contract
                     Number GS-00F-0037P

02/05/09   A060002   Limited Scope Postaward Review of                                  $630,140
                     Schedule Contract: Resource Consultants,
                     Inc., Contract Number GS-10F-0191J

02/05/09   A070221   Postaward Review of Multiple Award                               $1,016,690
                     Schedule Contract Number GS-24F-1289C
                     for the Period January 1, 1998 to
                     September 30, 2008: Thermo Fisher
                     Scientific (Asheville), LLC

02/05/09   A080192   Preaward Review of Multiple Award
                     Schedule Contract Extension: Engineering
                     and Professional Services, Inc., Contract
                     Number GS-10F-0193P

02/11/09   A080141   Preaward Review of Multiple Award
                     Schedule Contract Extension: KLN Steel
                     Products Company, Contract Number GS-
                     27F-2014B

02/12/09   A080178   Preaward Review of Multiple Award
                     Schedule Contract Extension: Ocean
                     Systems Engineering Corporation, Contract
                     Number GS-35F-5278H

03/03/09   A080085   Preaward Review of Multiple Award
                     Schedule Contract Extension: The HON
                     Company, Contract Number GS-28F-
                     8047H
03/12/09   A070104   Review   of      Multiple   Award   Schedule                       $407,922



                                                                    October 1, 2008 – March 31, 2009 45
                               Appendix II–Audit Report Register
                                                                                        Financial
                                                                                   Recommendations
                                                                              Funds to         Questioned
Date of        Audit                                                         Be Put to       (Unsupported)
Report         Number                    Title                               Better Use           Costs


                                Contract Number GS-24F-1181B for the
                                Period June 1, 2001 to May 31, 2006:
                                Government Scientific Source, Inc.

03/23/09        A080212         Preaward Review of Multiple Award
                                Contract Extension: Phillips Corporation -
                                Federal Division, Contract Number GS-
                                07F-7729C


Other Internal Audits
10/14/08        A080093         Review of Internal Controls Over Payroll -
                                FY 2008

11/07/08        A090022         Report on Internal        Controls   Over
                                Performance Measures

11/14/08        A080118         Limited Audit of the Fiscal Year 2008
                                Federal Managers’ Financial Integrity Act
                                Section 2 and Section 4 Assurance
                                Statements

12/18/08        A080108         Audit    of    the    General     Services
                                Administration’s Fiscal Year 2008 and 2007
                                Financial Statements

12/18/08        A080108         PricewaterhouseCoopers LLP Fiscal Year
                                2008 EDP Management Recommendation
                                Letter


Other Audit Products
3/31/09         A090024         Implementation Review of Award for
                                Streamlined    Technology    Acquisition
                                Resources for Services Government-Wide
                                Acquisition Contract, Report Number
                                A050213/Q/6/P07001


Non-GSA Internal Audits
11/04/08        A080108         FY 2008 Agreed Upon Procedures Re:
                                Environmental Liabilities

11/14/08        A080108         Report   on    Applying     Agreed-Upon
                                Procedures    Re:   FY      2008   Loss
                                Contingencies



46 Semiannual Report to the Congress
 Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open
decision required with regard to a recommendation in an       recommendations. While we continue to assist the
Inspector General’s report within 12 months after the         Agency in resolving these open items, various litigative
date of the report. If the head of the Agency fails to com-   proceedings, continuing negotiations of contract
plete final action within the 12-month period, the            proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and often phased-in implementing actions often
semiannual report until final action is complete.             delay timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                             Title


Contract Audits
08/05/97        A73617           Refund from the Committee for Purchase from People Who Are Blind or Severely
                                 Disabled: Committee for Purchase, Agreement Number GS-02F-61511

06/01/00        A000971          Audit of Claim for Increased Costs: Midwest Curtainwalls, Inc., The Federal Triangle
                                 Project

04/30/01        A010127          Audit of Billing under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                 Inc.

10/18/01        A63630           Postaward Audit of Multiple Schedule Contract: The Presidio Corporation, Contract
                                 Number GS-00K-95-AGS-6170

03/25/03        A030140          Limited Scope Review of Termination Claim: Science Applications International
                                 Corporation, Contract Number GS-35F-4461

01/12/04        A040098          Preaward Audit of Supplemental Architect and Engineering Services Contract:
                                 Gonzalez Hasbrouck, Inc., Contract Number GS-05P-03-GBD-0072

02/03/04        A040119          Attestation Review of Supplemental Architect and Engineering Proposal: Julie Snow
                                 Architects, Inc., Contract Number GS-05P-03-GBD-0072

03/09/04        A030186          Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc., Contract
                                 Number GS-29F-0173G

03/09/04        A040162          Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                                 Contract Number GS-29F-0173G

06/28/04        A040085          Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                                 Software, Inc., Contract Number GS-35F-0117J

05/10/05        A050112          Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                                 Contract Number GS-35F-0332K

07/08/05        A050138          Review of Claim for Increased Costs: Nason and Cullen, Inc., Contract Number GS-
                                 03B-02301

10/12/05        A050105          Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                                 Contract Number GS-14F-003K



                                                                                       October 1, 2008 – March 31, 2009 47
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                         Title


11/30/05        A050147         Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                                Contract: Herman Miller, Inc., Contract Number GS-28F-8049H

01/05/06        A050247         Preaward Review of Price Adjustment Claim: Lockheed Martin Information
                                Technology, Contract Number GS-35F-4039G

03/30/06        A050248         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                Inc., Contract Number GS-09K-99-BHD-0006

04/18/06        A050122         Review of Industrial Funding Fee Remittances: Fasternal Company, Contract
                                Number GS-06F-0039K

08/15/06        A060127         Preaward Review of Multiple Award Schedule Contract Extension: W.B. Brawley
                                Company, Contract Number GS-27F-0018L

09/07/06        A060181         Preaward Review of Multiple Award Schedule Contract Extension: Haverstick
                                Government Solutions, Inc., Contract Number GS-35F-0496L

10/24/06        A060148         Preaward Review of Multiple Award Schedule Contract Extension: Kimball
                                International, Contract Number GS-29F-0177G

10/31/06        A060206         Postaward Review of Lease Costs and Pricing Data: Information Systems Support
                                Inc., Contract Number GS-09K-99-BHD-0006
12/08/06        A060115         Preaward Review of Multiple Award Schedule Contract Extension: WFI Government
                                Services, Inc., Contract Number GS-35F-0553L

04/20/07        A070107         Review of a Claim: Linear Electric Company, Contract Number GS-02B-23182

04/30/07        A060245         Preaward Review of Multiple Award Schedule Contract Extension: Comstor, Division
                                of Westcon Group N.A., Inc., Contract Number GS-35F-4389G

05/03/07        A070036         Preaward Review of Multiple Award Schedule Contract Extension: ASAP Software
                                Express, Inc., Contract Number GS-35F-4027D

05/14/07        A070047         Limited Scope Review of Multiple Award Schedule Contract: Draeger Safety, Inc.,
                                Contract Number GS-07F-9510G

07/31/07        A060247         Preaward Review of Multiple Award Schedule Contract Extension: AT&T
                                Government Solutions, Inc., Contract Number GS-35F-4507G

08/16/07        A070092         Preaward Review of Multiple Award Schedule Contract Extension: SimplexGrinnell
                                LP, Contract Number GS-07F-0396M

08/23/07        A070183         Preaward Review of Architect Engineer Proposal: Perkins + Will, Contract Number
                                GS-09P-06-KTC-3043

08/27/07        A070141         Review of Claim for Increased Costs: Logicvision, Inc., Contract Number GS-06P-
                                04-GYC-0005

08/28/07        A060196         Preaward Review of Request for Equitable Adjustment: Tigard Electric, Inc.,
                                Contract Number GS-10P-02-LTC-0025


48 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                   Title


09/27/07   A060239   Preaward Review of Multiple Award Schedule Contract Extension: Emtec Federal,
                     Inc., Contract Number GS-35F-4564G

10/02/07   A060194   Limited Scope Pricing Review of Multiple Award Schedule Contract: Q-Matic
                     Corporation, Contract Number GS-07F-0017K

10/04/07   A070144   Preaward Review of Multiple Award Schedule Contract Extension: Aquilent, Inc.,
                     Contract Number GS-35F-4729G

10/18/07   A070153   Preaward Review of Multiple Awards Schedule Contract Extension: J& L America,
                     Inc., Contract Number GS-06F-0074M

10/31/07   A070120   Preaward Review of Multiple Award Schedule Contract Extension: Merlin
                     International, Inc., Contract Number GS-35F-0783M

11/05/07   A070220   Review of Claim for Increased Costs: Faith Technologies, Inc., Contract Number
                     GS-06P-02-GZC-0546

12/18/07   A070176   Preaward Review of Multiple Award Schedule Contract Extension: T-Mobile USA,
                     Inc., Contract Number GS-35F-0503M

12/19/07   A070133   Preaward Review of Multiple Award Schedule Contract Extension: World Wide
                     Technology, Inc., Contract Number GS-35F-4194D
12/20/07   A070103   Preaward Review of Multiple Award Schedule Contract Extension: Intelligent
                     Decisions, Inc., Contract Number GS-35F-4153

01/07/08   A070233   Review of Claim for Increased Costs: Mainelli Mechanical Contractors, Inc., Contract
                     Number GS-06P-02-GZC-0546

01/23/08   A070179   Preaward Review of MAS Contract Extension: Herman Miller Inc., Contract Number
                     GS-28F-8049H

02/12/08   A070119   Preaward Review of Multiple Award Schedule Contract Extension: BAE Systems
                     Information Technology, Inc., Contract Number GS-35F-4668G

02/21/08   A080039   Limited Review of General Conditions, Overhead and Commission Rates: Cauldwell
                     Wingate Company, LLC, Contract Number GS-02P-05-DTC-0021(N)

03/03/08   A070124   Preaward Review of Multiple Award Schedule Contract Extension: Alion Science
                     and Technology Corporation, Contract Number GS-35F-4721G

03/07/08   A070202   Review of a Claim: Dick Corporation/Matt Construction Company, Contract Number
                     GS-09P-01-KTC-007

03/19/08   A070177   Review of Claim for Increased Costs: Caddell Construction Company, Inc., Contract
                     Number GS-06P-02-GZC-0546

03/31/08   A080059   Preaward Review of Multiple Award Schedule Contract Extension: Belleville Shoe
                     Manufacture Company, Contract Number GS-07F-9990H




                                                                       October 1, 2008 – March 31, 2009 49
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                            Title


03/31/08        A070223         Preaward Review of Multiple Award Schedule Contract Extension: Cotton &
                                Company LLP, Contract Number GS-23F-9807H

03/31/08        A080080         Postaward Audit Report on Examination of Direct Costs: Science Applications
                                International Corporation, Contract Number GS-00T-99-ALD-0210

03/31/08        A070227         Preaward Review of Multiple Award Schedule Contract               Extension:
                                Telecommunication Systems, Inc., Contract Number GS-35F-4655H


Internal Audits
03/06/07       A060149             Review of eOffer/eMod, GSA’s Electronic Contract         07/15/2009
                                   Proposal and Modification System

09/12/07       A070180             Alert Report on Security of GSA’s Electronic             05/15/2009
                                   Messaging Services and National Notes Infrastructure

05/17/07       A070067             Review of the Administration of Unused Airline Tickets   05/15/2009

03/18/03       A020161             Audit of the Consolidation of Distribution Center        07/15/2009
                                   Operations: Impact on Shipment Costs and Delivery
                                   Times

09/13/07       A060170             Review of the Heating Operation and Transmission         01/15/2010
                                   District’s Operations and Finances

07/31/07       A060190             Review of Multiple Award Schedule Program Contract       01/15/2010
                                   Workload Management

03/31/08       A060228             Improvements to the GSA Privacy Act Program are          11/15/2009
                                   Needed to Ensure that Personally Identifiable
                                   Information is Adequately Protected

03/21/08       A070164             Review of the Use of Inventory Management Software,      12/15/2009
                                   Federal Acquisition Service




50 Semiannual Report to the Congress
                 Appendix IV–Government Contractor Audit Findings



The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General appointed
under the Inspector General Act of 1978 to submit an annex on final, completed contract audit reports issued to the con-
tracting activity that contain significant audit findings – unsupported, questioned, or disallowed costs in an amount in
excess of $10 million, or other significant findings – as part of the Semiannual Report to Congress. During this report-
ing period, the OIG issued one contract audit report under this requirement. At our request, the audit was performed by
the Defense Contract Audit Agency (DCAA) on the direct costs incurred and billed by Computer Sciences Corporation
(CSC) on a task order under GSA’s Millennia contract. DCAA evaluated $120.8 million incurred and billed by CSC and
seven of the largest subcontractors that performed under the task order during the period May 2001 through April 2005,
and took exception to $14.95 million. DCAA also reported $520,608 in unauthorized cost transfers and unresolved $3.2
million primarily related to the indirect costs and contract fees billed by a subcontractor.




                                                                                     October 1, 2008 – March 31, 2009 51
                   Appendix V–Audits Without Management Decision



Section 5(a)(10) of the IG Act, as amended, requires a summary of each audit report issued before the commence-
ment of the reporting period for which no management decision has been made by the end of the reporting period.
GSA has a system in place to track audit reports and management decisions. Its purpose is to ensure that recom-
mendations and corrective actions indicated by the OIG and agreed to by management are addressed as efficiently
and expeditiously as possible. This period there is one OIG audit report that meets this requirement.


  Improved Access Controls Could Help Protect Personnel Information within
  the Comprehensive Human Resources Integrated System (CHRIS), issued
  September 8, 2008
  This audit built on the results of two prior CHRIS reviews and focused primarily on whether specific manage-
  ment, operational, and technical controls have been implemented to appropriately limit access to sensitive per-
  sonnel information. The report contained four recommendations: complete a comprehensive assessment to
  determine if CHRIS has been implemented in accordance with user and management requirements and
  whether “Least Privilege” controls are in place and operating as intended; ensure that independent reviews of
  CHRIS auditing and monitoring logs are completed; coordinate with Public Buildings Service (PBS) to estab-
  lish a Memorandum of Understanding that defines roles and responsibilities for securing CHRIS data for PBS
  and the Office of the Chief Human Capitol Officer (OCHCO) and identifies security controls required to protect
  personnel data viewed with the Business Objects reporting utility; and address CHRIS technical vulnerabilities
  and ensure all known vulnerabilities are promptly recorded and mitigated. To reach a management decision,
  the OCHCO needs to make suggested revisions to the proposed action plan and identify the supporting docu-
  mentation it will provide to close out each corrective action. Resolution is expected by May 29, 2009.




52 Semiannual Report to the Congress
                                  Appendix VI–Delinquent Debts



The GSA Office of the Chief Financial Officer provided the following information.

In compliance with the Debt Collection Improvement Act      GSA has also improved the consistency and timeliness
of 1996 (DCIA), each month the General Services             of delinquency notices by letter, and increased efforts to
Administration (GSA) transmits delinquent accounts          identify invoice offsets on amounts due to commercial
receivable and claims from the public which are more        vendors on other contracts. GSA’s Financial Services
than 180 days old to the Department of the Treasury,        Division expects these administrative adjustments to
(Treasury) Debt Management Service. GSA has                 result in faster claim resolution. In addition, more
continued to implement and initiate actions to improve      aggressive actions have been taken to resolve past due
debt collection efforts to reduce the amount of debts       receivables, including timelier referrals to Treasury and
written-off as uncollectible.                               accelerated write-offs of older receivable balances.

Delinquent accounts receivable and claims coordination      GSA converted the Accounts Receivable Collection
efforts between GSA program offices, the financial          System from a FoxPro to an Oracle database during the
services divisions, and Treasury claims cross-servicing     month of May 2008. The Oracle database will allow
personnel continue to strengthen our receivables and        Claims staff the ability to receive support for ad hoc
claims collection efforts. These efforts include regular    reports as needed. In addition, research capabilities and
teleconferences on delinquent receivables in order to       the month end reporting process have improved.
exchange necessary information to further the collection
process. Receivables and claims continue to be reduced      Lastly, if more than 3% of a region’s outstanding
by increased follow-up of delinquencies.                    receivables are over 180 days old, the region receives a
                                                            red status on GSA’s Executive Financial Scorecard
A claims database was established by GSA to aid in the      which serves as a primary internal control developed by
aging and monitoring of claims activity. Other              GSA staff. In addition to the monthly scorecard, a weekly
improvements include increases in telephone follow-up       Accounts Receivable Aging report is sent to GSA’s
contacts with commercial vendors, field personnel, and      Regional Commissioners.
GSA managers to identify and resolve collection issues.


Non-Federal Accounts Receivable

                                            As of                         As of
                                      September 30, 2008              March 31, 2009                 Difference

     Total Amounts Due GSA                $168,664,853                  $144,634,557               ($24,030,296)

     Amounts Delinquent                    $14,782,891                   $12,880,763                 ($1,902,128)

     Total Amount Written Off                              $1,050,271
     as Uncollectable Between
     10/01/08 and 03/31/09



From October 1, 2008 to March 31, 2009, the Office of       sets have resulted in additional collections of
Financial Policy and Operations referred $1,297,662 in      $14,750,441. GSA also collected non-Federal
delinquent non-Federal claims to Treasury for cross-        claims using Pre-Authorized Debits totaling
servicing collection activities. Collections on non-        $14,274.
Federal claims were $64,551,433. Administrative off-


                                                                                    October 1, 2008 – March 31, 2009 53
                                     Appendix VII–Reporting Requirements



The table below cross-references the reporting in                                  1978, as amended, to the specific pages where they are
Senate Report No. 96-829 relative to the 1980 require-                             the National Defense Authorization Act is also cross-
ments prescribed by the Inspector General Act of                                   addressed. The information requested by the Congress
Supplemental Appropriations and Rescission Bill and                                referenced to the appropriate page of the report.


Requirement                                                                                                                                         Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . 2–14

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–14

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
       Information Was Refused. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(6) – List of Audit Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

     Section 5(a)(7) – Summary of Each Particularly Significant Report. . . . . . . . . . . . . . . . . . . . . . . . . . 2–14

     Section 5(a)(8) – Statistical Tables on Management Decisions on
       Questioned Costs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

     Section 5(a)(9) – Statistical Tables on Management Decisions on
       Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

     Section 5(a)(10) – Summary of Audit Reports Issued Before the Commencement
       of the Reporting Period for Which No Management Decision Has Been Made . . . . . . . . . . . . . . . . . 52

     Section 5(a)(11) – Description and Explanation for Any Significant
       Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

     Section 5(a)(12) – Information on Any Significant Management
       Decisions with Which the Inspector General Disagrees. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . none

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

  National Defense Authorization Act

     Public Law 104-106, 5 U.S.C. app. 3, § 5 note . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

     Public Law 110-181 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51



54 Semiannual Report to the Congress
                           Appendix VIII–OIG Offices and Key Officials




Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Deputy Inspector General (Acting), Robert C. Erickson . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Executive Assistant for Management, Terrence S. Donahue . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0363
Special Assistant for Communications and Congressional Affairs, Dave Farley . . . . . . . . . . (202) 219-1062

Office of Counsel to the Inspector General
Counsel to the IG, Richard Levi (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932

Office of Internal Evaluation and Analysis
Director, Peter J. Coniglio (JE) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0468
Office of Forensic Auditing, Director (Acting), Patricia D. Sheehan . . . . . . . . . . . . . . . . . . . (703) 603-0193

Office of Audits
Assistant IG for Auditing, Theodore R. Stehney (JA). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
Principal Deputy Assistant IG for Auditing, Regina M. O’Brien (JAD) . . . . . . . . . . . . . . . . . . (202) 501-0374

Deputy Assistant Inspectors General for Auditing
Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . . (703) 308-1223
Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2322
Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F) . . . . . . . . . . . . . . . . . . . . (202) 501-0006
Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A) . . . . . . . . . . . . . . . . . . . . . (703) 603-0189
Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4846

Regional Inspectors General for Auditing
National Capital Region Field Office, Paul J. Malatino (JA-W) . . . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . . (212) 264-8620
Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
The Heartland Field Office, John F. Walsh (JA-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2571
Pacific Rim Field Office, James P. Hayes (JA-9). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744




                                                                                                       October 1, 2008 – March 31, 2009 55
                           Appendix VIII–OIG Offices and Key Officials




  Office of Investigations
  Assistant IG for Investigations, Gregory G. Rowe (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
  Deputy Assistant IG for Investigations, Vacant (JID) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
  Director, Investigations Operations Division, Randal A. Stewart (JIB). . . . . . . . . . . . . . . . . . (202) 501-4583

  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Christopher P. Cherry (JI-W). . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
    Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . . . (215) 861-3550
  Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . . (212) 264-7300
    Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . . . (617) 565-6820
  Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
    Miami Resident Office, SA Dietrich Bohmer (JI-4M). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (954) 356-6993
  Central Regional Office, SAC Stuart G. Berman (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
    Denver Resident Office, SA Christopher C. Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
  Western Regional Office, SAC Liza Ivins (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
    Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654

  Office of Administration
  Assistant IG for Administration, Carolyn Presley-Doss (JP) . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-4638
  Budget, Planning, and Financial Management Division, Director Kristin Sneed (JPB) . . . . . (202) 208-4198
  Facilities and Contracts Division, Director Marta M. Viera (JPFC) . . . . . . . . . . . . . . . . . . . . (202) 501-2887
  Human Resources Division, Director Cynthia Whatley (JPH) . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0360
  Information Technology Division, Director Michael McLaughlin (JPM) . . . . . . . . . . . . . . . . . (202) 219-2319




56 Semiannual Report to the Congress
Notes




        October 1, 2008 – March 31, 2009 57
                                       Notes




58 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
